V

JULIE DALESSIO, Plaintiff-Appellant,
v.
UNIVERSITY OF WASHINGTON, a Washington Public
Corporation; et al.,
Defendants-Appellees.
No. 19-35675
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
FILED
OCT 30 2020
MOLLY C. DWYER, CLERK U.S. COURT OF APPEALS
D.C. No. 2:17-cv-00642-MJP Western District of
Washington, Seattle
ORDER
Before: THOMAS, Chief Judge, and HAWKINS and
McKEOWN, Circuit Judges.
The panel votes to deny the petition for rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc and no judge has
requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition for
rehearing en banc are denied.

APPENDIX 1

NOT FOR PUBLICATION
FILED
AUG 10 2020
MOLLY C. DWYER, CLERK U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
JULIE DALESSIO, Plaintiff-Appellant,
v.
UNIVERSITY OF WASHINGTON, a Washington Public
Corporation; et al.,
Defendants-Appellees.
No. 19-35675
D.C. No. 2:17-cv-00642-MJP
MEMORANDUM*
Appeal from the United States District Court for the
Western District of Washington Marsha J. Pechman,
District Judge, Presiding
Submitted August 4, 2020** San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and
McKEOWN, Circuit Judges.
Julie Dalessio appeals the district court’s grant of
summary judgment and denial of a motion for
reconsideration arising out of public records
requests to the University of Washington (“UW”)
under Washington’s Public Records Act. We have
jurisdiction under 28 U.S.C. § 1291, and we affirm.
*This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

APPENDIX 2

We review de novo the grant of summary
judgment. See Clicks Billiards Inc. v. Sixshooters,
Inc., 251 F.3d 1252, 1257 (9th Cir.2001). The district
court properly granted summary judgment on
Dalessio’s breach of contract claim against UW,
because it was timed barred, see RCW 4.16.040(1)
(statute of limitations for a claim on a written contract
is six years), and the discovery rule does not apply.
See 1000 Va. Ltd. P’ship v. Vertecs Corp., 146 P.3d
423, 430-32 (Wash. 2006) (en banc) (applying the
discovery rule narrowly to construction contracts
where latent defects are alleged).
The district court did not err in granting
summary judgment on Dalessio’s constitutional
claims under 42 U.S.C. § 1983. A violation of § 1983
requires proof that “(1) the defendants acting under
color of state law (2) deprived plaintiffs of rights
secured by the Constitution or federal statutes.”
Gibson v. United States, 781 F.2d 1334, 1338 (9th Cir.
1986). There is no proof defendants violated
Dalessio’s Fourth or Fourteenth Amendment rights.
See City of Ontario, Cal. v. Quon, 560 U.S. 746, 761
(2010) (no Fourth Amendment violation where there
were “reasonable grounds for suspecting that the
search [was] necessary for a noninvestigatory workrelated purpose” (internal quotation marks and
citation omitted)); Daniels v. Williams, 474 U.S. 327,
332 (1986) (negligent conduct by a
state official does not constitute deprivation under the
Due Process Clause); Arnold v. Int'l Bus. Machs.
Corp., 637 F.2d 1350, 1355 (9th Cir. 1981) (in absence
of personal participation, § 1983 liability exists where
an actor “set[s] in motion a series of acts by others
which the actor knows or reasonably should know
APPENDIX 3

would cause others to inflict the constitutional injury”
(internal quotation marks and citation omitted)).
With respect to the release of Dalessio’s health
and medical information, a § 1983 claim cannot be
sustained under the ADA or HIPAA. See Vinson v.
Thomas, 288 F.3d 1145, 1155-56 (9th Cir. 2002) (“[A]
comprehensive remedial scheme for the enforcement
of a statutory right creates a presumption that
Congress intended to foreclose resort to more
general remedial schemes to vindicate that right.”
(internal quotation marks and citation omitted)). A
constitutional right to privacy does not reach every
disclosure of personal information. See Paul v. Davis,
424 U.S. 693,713(1976).
The district court properly granted summary
judgment on Dalessio’s common law tort claim,
because defendants were entitled to good faith
immunity under RCW § 42.56.060. See Whaley v.
State, Dep’t of Soc. & Health Servs., 956 P.2d 1100,
1106 (Wash. App. 1998).
The district court did not err in granting
summary judgment on Dalessio’s claims for injunctive
and declaratory relief. Dalessio failed to show that
she has “a well-grounded fear
of immediate invasion” of “a clear legal or equitable
right,” Wash. Fed. Of State Emps., Council 28 v. State
of Washington, 665P.2d 1337, 1343 (Wash. 1983) (en
banc) (citation omitted), and a declaratory judgment
would not resolve an “autonomous and independent
dispute” of “vital importance” L.A. Cty. Bar Ass'n v.
Eu, 979 F.2d 697, 703 (9th Cir. 1992) (citation
omitted).

APPENDIX 4

4*

Finally, because the district court was not
presented with newly-discovered evidence and did
not commit clear error, it was not an abuse of
discretion to deny the motion for reconsideration.
See 389 Orange St. Partners v. Arnold, 179 F.3d 656,
661,665 (9th Cir. 1999).
AFFIRMED.

APPENDIX 5

<v

Filed 07/09/19
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON AT SEATTLE
JULIE DALESSIO,
Plaintiff,
v.
UNIVERSITY OF WASHINGTON, et al.,
Defendants.
CASE NO. Cl7-642 MJP
ORDER DENYING MOTION FOR RECONSIDERATION
AND MOTION TO AMEND COMPLAINT
The above-entitled Court, having received and
reviewed Plaintiff’s Motion for Reconsideration and
Motion to Amend Complaint (Dkt. No. 184),
Defendants’ Opposition (Dkt. No. 186), all attached
declarations and exhibits, and relevant portions of
the record, rules as follows:
IT IS ORDERED that the motion for reconsideration is
DENIED.
IT IS FURTHER ORDERED that the motion to amend
the complaint is DENIED.
Background
Plaintiff, originally appearing pro se, filed a
complaint in state court alleging invasion of privacy,
public records violations, breach of contract,
defamation/libel, discrimination/retaliation and
negligence. (Dkt. No. 1-1.) The matter was removed
by Defendants to federal court in April 2017. (Dkt. No.
1.) In January 2018, counsel was appointed to
represent Plaintiff (Dkt. No. 67) and an amended
complaint was filed, now alleging violations of 42
U.S.C. § 1983 (Fourth and Fourteenth Amendments),
APPENDIX 6

-V*

breach of contract, and public disclosure of private
facts. (Dkt. No. 82.)
Over the course of two summary judgment motions
filed by Defendants, Plaintiff was challenged to
produce both facts and law to support her claims.
This Court found deficiencies in both areas - a
portion of her claims were dismissed in February
2019 (Dkt. No. 153) and the remainder of her case
was dismissed in its entirety in June 2019. (Dkt. No.
176.) Plaintiff has filed a motion to reconsider (1) the
order denying her motion to reconsider the partial
granting of Defendant’s first summary judgment
motion (Dkt. No. 160) and (2) the order and judgment
granting Defendant’s second summary judgment
motion and dismissing her case. (Dkt. Nos. 176, 177.)
Additionally, she has requested leave to file an
amended complaint.
Discussion
Local Rule 7(h) (“Motions for Reconsideration”)
states:
(1) Motions for reconsideration are disfavored. The
court will ordinarily deny such motions in the
absence of a showing of manifest error in the prior
ruling or a showing of new facts or legal authority
which could not have been brought to its attention
earlier with reasonable diligence.
The motion shall be filed within 14 days following the
finding of the order to which it relates. LCR 7(h)(2).
In keeping with the filing deadline announced at
LCR 7(h)(2), that portion of Plaintiff’s motion seeking
reconsideration of the order at Dkt. No. 160 will be
summarily denied. That order was issued on March
15, 2019 and the 14-day deadline has long expired.
APPENDIX 7

Furthermore, that order was already a denial of a
motion for reconsideration (improperly characterized
as a “Motion for Relief Pursuant to FRCP 60(a)”);
Plaintiff’s only legitimate recourse is an appeal to the
Ninth Circuit Court of Appeals.
Regarding that portion of Plaintiff’s motion for
reconsideration which is addressed to the Order
Granting Defendants’ Second Motion for Summary
Judgment (Dkt. No. 176), the Court finds that motion
for reconsideration was timely filed. Plaintiff claims
both legal error and new facts in justification of her
position that the Court ruled improperly against her.
Turning first to her allegations of “new evidence,”
Plaintiff asserts that evidence which was produced in
April 2019 pursuant to a public records request from
“Public Records News Media” (found at Dkt. Nos.
172, 173, and 174) constitutes “new facts” justifying a
reconsideration of the Court’s dismissal of Plaintiff’s
suit. The argument is not meritorious.
In the first place, the evidence was in the possession
of Plaintiff’s acquaintance Terrilyn Heggins (a/k/a
“Public Records News Media”) as of April 10, 2019.
See Dkt. No. 173, Decl. of Heggins at 6. Plaintiff
indicates that she received the information “[o]n or
about the end of April 2019” and did not provide it to
her attorney until a month later. Dkt. No. 174, Decl. of
Dalessio at 2, 4.1 This in no way comports with the
requirement of a showing that the new facts “could

1 Plaintiff provides no explanation of either the two-week delay
in receiving the information from Ms. Heggins or the one-month
delay in delivering it to her counsel.
APPENDIX 8

not have been brought to [the Court’s] attention
earlier with reasonable diligence.”
In the second place, the evidence Plaintiff seeks to
use to justify her reconsideration request is (as
Defendants point out) “entirely separate from the
public records requests and responses at issue in this
lawsuit.” The allegations in Plaintiff’s suit involve
material produced in 2015 and 2016; Plaintiff’s
attempt to use documents produced three years after
that, with no opportunity for Defendants to test its
relevance or authenticity through discovery or
deposition, is not a proper litigation tactic.
Finally, even if the documents presented by Plaintiff
as “new facts” were admissible and adjudged
relevant to her allegations, their legal impact is non­
existent; i.e., they would have made no difference in
the Court’s ruling. The Court has previously
announced that it would assess the viability of
Plaintiff’s claims to a violation of her constitutional
right to privacy on the basis of a legal standard which
tests whether any of the information produced was
“shocking, “degrading,” “egregious,” “humiliating,”
or “flagrant.” Dkt. No. 176 at 8-9. The information
contained in Plaintiff’s “new evidence” is the same
kind of personal information which, the Court has
already ruled, satisfies none of those standards. The
fact that the information was allegedly produced to an
acquaintance of Plaintiff’s (acting, in all likelihood, at
Plaintiff’s behest) renders it even less qualified to
establish her claims than the information produced to
her neighbor Mr. Betz.
Furthermore, it is apparent that Plaintiff seeks to
introduce this evidence as further proof of a “pattern
or practice” on the part of the University and its
APPENDIX 9

♦v

employees which, according to her theory of the
case, elevates the Defendants’ conduct above the
mere negligence which qualifies them for immunity
from liability. As the Court pointed out previously,
Plaintiff still has not adduced statistical evidence of
any sort which might tend to prove that the three
instances (Mr. Betz, herself, and now Ms. Heggins) of
which she has evidence constitute a sufficient
percentage of the University’s total records
production to constitute a “pattern or practice.” Nor
has she ever cited to persuasive legal authority that
evidence of a “pattern or practice” would raise any of
the Defendants’ conduct above simple negligence.
Id. at 14.
Turning to the allegations of legal error on the
Court’s part, Plaintiff continues to argue that
Defendants’ production of information from the
Disability Services Office and her employee benefits
records was improper. Having already found that
Defendants’ searches of files and documents in
possession of the University were conducted in the
course of “responding to a legitimate PRA request”
pursuant to a “legitimate ‘noninvestigatory workrelated purpose’” (and thus not a Fourth Amendment
violation; see id. at 9), the Court sees no legal
authority cited in Plaintiff’s reconsideration request
tending to establish that such a finding was in error.
It now appears that Plaintiff is maintaining that the
Court erred by “overlook[ing] that Ms. Dalessio’s
claims describe violations of Title I of the Americans
with Disabilities Act (ADA).” Dkt. No. 184, Motion at
6. The Court understood that Plaintiff was citing to
alleged ADA violations in attempting to establish her
§ 1983 claims and addressed the ineffectuality of that
APPENDIX 10

V*

argument with case law “which holds that § 1983 is
not available to vindicate rights under the ADA.” Dkt.
No. 176 at 6 (citations omitted). Plaintiff cites case law
from a 2009 Supreme Court case in opposition to that
finding, case law which was clearly capable of being
brought to the Court’s attention in her original
briefing. This is not proper argument on
reconsideration and merely constitutes an improper
“second bite at the apple” not permitted at this
juncture. Aronson v. Dog Eat Dog Films, Inc., 738
F.Supp. 2d 1104, 1118 (W.D. Wash. 2010).
Plaintiff alleges error in that “[t]his court only
considered 9 pages of personal and confidential
information given to Betz, and overlooked many
others.” Motion at 8. She neglects to mention that this
was the very information cited by her attorney as
“[t]he evidence... already in the record identifying
Plaintiff’s protected health information that was
produced pursuant to the PRA to David Betz.” Dkt.
No. 130 at 5. The additional information cited by
Plaintiff was available to her at the time her briefing
was filed, and at the time her attorney presented oral
argument on her behalf; it was not cited in either
instance and may not properly be cited in a motion
for reconsideration as it did not form a part of the
Court’s analysis or ruling.
Regarding Plaintiff’s motion to amend: Plaintiff
alleges that her “tort claims can be cured by naming
the University of Washington and justice so requires
this court give leave to amend her complaint.” She
asserts that UW was “inadvertently omitted from her
first amended complaint” and would not be
prejudiced by being added at this point. Motion at 8.
Firstly, UW was not omitted from her first amended
APPENDIX 11

complaint; the University is named in the case caption
and as the sole defendant on Plaintiff’s sixth cause of
action for breach of contract. Dkt. No. 82 at
183190. Because that was the only claim in which the
institution was named as a defendant, it was
dismissed from the lawsuit when that claim was found
to be barred by the statute of limitations. Dkt. No.
153, Order at 12. Plaintiff’s failure to name UW as a
defendant on any of her other claims cannot be cured
at this point. Nor does Plaintiff explain how adding
UW would overcome the good-faith immunity already
found to shield the remaining Defendants from state
tort liability. ROW 42.56.060; Dkt. No. 153 at 10 and
Dkt. No. 176 at 11.
Conclusion
Plaintiff presents neither new facts nor proof of legal
error which could not, with reasonable diligence,
have been produced during the briefing and oral
argument on Defendant’s second summary judgment
motion. Her attempt to invite reconsideration of the
Court’s ruling on Defendant’s first summary judgment
request is untimely and improper. Neither is she
entitled, at this point, to amend her complaint further.
Plaintiff’s motion for reconsideration and motion to
amend her complaint are DENIED.
The clerk is ordered to provide copies of this order to
Plaintiff and to all counsel.
Dated July 9, 2019.
s/Marsha J. Pechman
United States Senior District Judge

APPENDIX 12

Filed 06/07/19
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON AT SEATTLE
JULIE DALESSIO,
Plaintiff,
v.
UNIVERSITY OF WASHINGTON, et al.,
Defendants.
CASE NO. Cl7-642 MJP
ORDER GRANTING DEFENDANTS’ SECOND MOTION
FOR SUMMARY JUDGMENT
The above-entitled Court, having received and
reviewed:
1. Defendants’ Second Motion for Summary Judgment
(Dkt.No. 161),
2. Plaintiff’s Response to Defendants’ Second Motion
for Summary Judgment (Dkt. No.
162),
3. Defendants’ Reply in Support of Second Motion for
Summary Judgment (Dkt.
No. 163),
4. Plaintiff’s Objection to New Evidence (Dkt. No. 165)
and Defendants’ Response to
Plaintiff’s Objection (Dkt. No. 166), all attached
declarations and exhibits, and relevant portions of
the record, rules as follows: IT IS ORDERED that
Plaintiff’s Objection to New Evidence is DENIED.
IT IS FURTHER ORDERED that Defendants’ motion for
summary judgment is
GRANTED; the remainder of Plaintiff’s claims are
DISMISSED with prejudice.
APPENDIX 13

Background
The following are undisputed facts: Plaintiff was
employed by the University of Washington (“UW”) as
a Clinical Technologist in the Department of
Laboratory Medicine from 1987 until her resignation
in 2003. On September 16, 2015, UW’s Office of
Public Records (“OPR”) received a records request
from David Betz under the Public Records Act (RCW
42.56; “PRA”) for “all records maintained by the
University of Washington relating or pertaining to
Julie Dalessio.” (Dkt. No. 82 at 5, 29.) In response,
Defendant and OPR Compliance Analyst Alison
Swenson released two installments of redacted
records to Betz. UW released a total of 370 pages of
documents to Betz; although there were many
redactions, Plaintiff’s Social Security number (“SSN”)
was not redacted from two of the pages; there were
also instances of unredacted addresses, telephone
numbers and birthdates. Additionally, there was
information in the documents which Plaintiff alleges
was personal medical information protected under
the Health Information Portability and Accountability
Act (“HIPAA”) and the Americans with Disabilities
Act (“ADA”). (Dkt. Nos. 30-1, 30-2.)
Following Betz’s request, Plaintiff submitted her own
PRA request to UW for the information which was
released to Betz. (Id. at If 33.) On April 16, 2016, upon
receipt of the documents released to Betz under the
PRA, Plaintiff became aware that of the unredacted
information of which she now complains.
On November 9, 2016, Plaintiff submitted a second
PRA request for “a digital copy of my departmental
personnel file, along with any other computer or
paper files that might contain records of inquiries
APPENDIX 14

concerning my employment at the uw [sic], since my
resignation in January 2003.” (Dkt. No. 29, Decl. of
Palmer, Ex. A.) Those documents were provided (to
Plaintiff only) in two installments on January 26 and
February 15, 2017. (Id. at 3-4.)
Additionally, Plaintiff requested and received,
pursuant to the PRA, documents regarding other UW
employees which she claims also contain confidential
health information. Dkt. No. 37, Exs. 5-7.
Plaintiff’s amended complaint, filed by her appointed
counsel, originally named as defendants: the
University of Washington; Alison Swenson, OPR
Compliance Analyst; Eliza Saunders, Director of UW
Office of Public Records; Perry Tapper, UW Public
Records Compliance Officer; Andrew Palmer, OPR
Compliance Analyst; and Does 1-12 (unnamed
officials in various UW departments). (Dkt. No. 82,
98-203.) Plaintiff claimed violations of her federal
constitutional rights (§ 1983), breach of contract, and
liability under the “common law tort” of public
disclosure of private facts. In addition to economic,
compensatory, and punitive damages, she also
sought declaratory, equitable, and injunctive relief,
as well as attorney’s fees and costs. (Id. at 98-203,
et seq.)
In October of 2018, Defendants filed their first motion
for summary judgment. (Dkt. No. 119.) The Court
partially granted and partially denied that motion,
dismissing (1) all the “Doe Defendants” and UW; (2)
Plaintiff’s claims for breach of contract, along with her
request for declaratory and injunctive relief; and (3)
the portion of Plaintiff’s § 1983 and state law claims
related to disclosure of her “personal information”
(SSN, address, birthdate, etc.). See Dkt. No. 153,
APPENDIX 15

Order on Defendants’ Motion for Summary Judgment.
In an order addressing both sides’ requests for
reconsideration/clarification, the Court suspended
the case schedule in order to permit Defendants to
file the instant motion, a second motion for summary
judgment addressing the issues remaining in the
case. (Dkt. No. 160, at 8-9.)
Discussion
I. Standard of review
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
The moving party is entitled to judgment as a matter
of law when the nonmoving party fails to make a
sufficient showing on an essential element of a claim
in the case on which the nonmoving party has the
burden of proof. Celotex Corp. v. Catrett, 477 U.S.
317,323(1985).
There is no genuine issue of fact for trial where the
record, taken as a whole, could not lead a rational
trier of fact to find for the non-moving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986) (non-moving party must present
specific, significant probative evidence, not simply
“some metaphysical doubt.”); Fed. R. Civ. P. 56(e).
Conversely, a genuine dispute over a material fact
exists if there is sufficient evidence supporting the
claimed factual dispute, requiring a judge or jury to
resolve the differing versions of the truth. Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 253 (1986); T.W.
Elec. Service Inc. v. Pacific Electrical Contractors
Association, 809 F.2d 626, 630 (9th Cir. 1987).
APPENDIX 16

t

The Court turns first to Plaintiff’s “Objection to New
Evidence in Defendants’ Reply to Second Motion for
Summary Judgment.” (Dkt. No. 165.)
II. Motion to strike
Attached as Exhibit A to Defendants’ reply brief were
excerpts from discovery responses from the UW and
Defendant Swenson, along with transmittal letters
confirming that what Defendants Palmer and Swenson
had requested during their document search
concerning Plaintiff were “employment records” not
“personal patient medical records.” (Dkt. No. 164,
Decl. of Freeman, Ex. A) The evidence was produced
to rebut Plaintiff’s assertion in her response that
Defendants had searched her medical records and
produced protected information from that allegedly
improper source.
Plaintiff objects to the introduction of this “new
evidence” for the first time in Defendants’ Reply. It is
not a well-taken objection. In the first place, the
information was produced in response to Plaintiff’s
argument that documents might have been pulled
from “patient” records related to her medical
treatment. See Dkt. No. 162 at 14-16. It is beyond
question that Defendants are permitted to respond to
arguments made by Plaintiff in her responsive
briefing; to fail to respond would be to concede the
merit of the argument. Just as obviously, the rebutting
party has the right to present evidence in support of
whatever response it chooses to make.
Secondly, this evidence was excerpted from
discovery responses produced to Plaintiff in August
of 2018. See Dkt. No. 164-1 at 9. Both sides have
previously filed the exhibit to which Plaintiff now
APPENDIX 17

objects. See Dkt. Nos. 136-1, 113 at 9, 113-12, and
108-3. Plaintiff cannot maintain that she was surprised
by the evidence and it was entirely proper for
Defendants to adduce it in this context.
Plaintiff’s objection to the “new evidence” is DENIED.
III. Summary judgment motion
The remainder of the Court’s order addresses the
arguments of the parties presented in response to the
issues outlined by the Court in its previous order,
a) Are Plaintiff’s allegations concerning the
disclosure of medical information and alleged
violations of HIPAA and the ADA eligible for relief
under § 1983?
Plaintiff’s § 1983 claims regarding the production of
“protected” health/medical information fail on two
grounds.
First, even assuming for the sake of argument that the
evidence Plaintiff has presented was sufficient to
support her claim of production of privileged medical
information to a third party, and even assuming
arguendo that the production of such information was
a violation of HIPAA or the ADA, this would still not
suffice to form the basis of a § 1983 claim. Her
attempts to argue otherwise are futile.
Despite the Court’s admonitions to the contrary in the
order on Defendant’s first summary judgment motion
(see Dkt. No. 153 at 7-8), Plaintiff continues to confuse
her “right to privacy” with her constitutional rights.
While there is some overlap, they are not the same
thing, and establishing that one or more
governmental actors have negligently done
something which compromises the former does not
automatically mean that Plaintiff’s constitutional rights
APPENDIX 18

have been violated. Much more is required, and
Plaintiff’s proof fails to rise to that higher standard.
Case law abounds which holds that § 1983 is not
available to vindicate rights under the ADA (Vinson v.
Thomas, 288 F.3d 1145, 1155-56 (9th Cir. 2002)2;
Okwu v. McKim, 682 F.3d 842, 846 (9th Cir. 2012)3;
see also Iceberg v. Martin, 2017 WL 396438 at *8
(WAWD, Cl5- 1232JLR)) or HIPAA (Nickler v. County
of Clark, 752 F.App’x 427, 429 (9th Cir. 2018)4.
Plaintiff attempts to circumvent this prohibition by
arguing that the restrictions of HIPAA and the ADA
“define the contours” of the constitutional right to
privacy that she is vindicating through her lawsuit.
Dkt. No. 162, Response at 8. But ultimately it is just
another way of attempting to assert that these
statutory schemes (which have their own remedial
engines) create rights which are enforceable under §
2 "[A] comprehensive remedial scheme for the enforcement of a
statutory right creates a presumption that Congress intended to
foreclose resort to more general remedial schemes to vindicate that
right." (citations omitted)... We therefore join the Fifth, Eighth, and
Eleventh Circuits and hold that a plaintiff cannot bring an action under
42 U.S.C. § 1983 against a State official in her individual capacity to
vindicate rights created by Title II of the ADA..."
3 " By drafting a comprehensive remedial scheme for employer's
violations of ADA Title I, Congress manifested an intent to preclude §
1983 remedies. See 42 U.S.C. § 12117... We are not free to interpret §
1983 in a way that provides a substitute remedy that Congress never
provided."
4 To the extent that [Plaintiff] raises a claim based on an alleged Health
Insurance Portability and Accountability Act (HIPAA) violation, that claim
fails because there is no private right of action under HIPAA, (citation
omitted), and [Plaintiff] has not shown that Congress's enactment of
HIPAA "create[d] new rights enforceable under § 1983 ... in clear and
unambiguous terms, (citations omitted.)"

APPENDIX 19

1983; in fact, Plaintiff states at one point that “[she] is
referring to HIPAA and the ADA to define what
privacy rights are afforded to her by the U.S.
Constitution.” Id. This is exactly what the case law
says those statutes do not do.
Nor does Plaintiff produce case law to support her
position. She cites to a case in support of her
argument that HIPAA and the ADA can be used to
“define the ‘contours’ of rights to privacy under the
Fourth or Fourteenth Amendment” (Castro v. County
of Los Angeles, 833 F.3d 1060, 1067 (9th Cir. 2016)),
but Castro is a prisoner rights case concerning the
right to be free from violence at the hands of other
inmates; the case has nothing to do with HIPAA or the
ADA or a constitutional right to privacy.
She quotes from another Ninth Circuit ruling which
found that “the statute5 is of relevance in determining
what privacy... public personnel expected to have.”
Nicholas v. Wallenstein, 266 F.3d 1083, 1088 (9th Cir.
2011). In the first place, the case is concerned with
the limitations on privacy expectations created by the
statute (i.e., that a prison nurse was not exempt from
production of information the public had a right to
access under Washington’s Public Disclosure Act). In
the second place, the holding was addressed to
privacy rights, not constitutional rights; another
example of Plaintiff mistaking one for the other.
An Eighth Circuit case from 2002 articulates best (1)
the reason why not every violation of a person’s
privacy is a constitutional violation and (2) the nature
of the threshold which Plaintiff is required to cross to
5 The statute, this Court notes, was Washington's Public Disclosure Act,
not HIPAA or the ADA.

APPENDIX 20

establish that a violation of her privacy reaches
“constitutional” dimensions:
Not every disclosure of personal information will
implicate the constitutional right to privacy,... and the
Supreme Court has cautioned against unwarranted
expansion of the right: "The personal rights found in
[the] guarantee of personal privacy must be limited
to those which are 'fundamental' or 'implicit within the
concept of ordered liberty'...." (citations omitted)
"The Due Process Clause 'does not purport to
supplant traditional tort law in laying down rules of
conduct to regulate liabilities for injuries that attend
living together in society ....'" (citations omitted). See
also Eagle, 88 F.3d at 627 ("We must constantly
remain aware, however, that the Constitution does
not provide a remedy for every wrong that occurs in
society.").
In accordance with these principles, we have
consistently held that to violate the constitutional
right of privacy "the information disclosed must be
either a shocking degradation or an egregious
humiliation ...to further some specific state interest,
or a flagrant breach of a pledge of confidentiality
which was instrumental in obtaining the personal
information." Alexander, 993 F.2d at 1350 (citation
omitted).
Cooksey v. Boyer, 289 F.3d 513, 515-16 (8th Cir.
2002). None of the information concerning Plaintiff
which appears in any document she has produced as
evidence can be described as “shocking,”
“degrading,” “egregious,” “humiliating,” or
“flagrant.” Even if she could establish that
“protected” health information about her was
transmitted to a third party, she has failed as a matter
APPENDIX 21

of law to establish that the information was of such an
extreme nature that it rose to the level of violation of a
constitutional right.
Plaintiff also grounds her argument alleging a 4th
Amendment “unreasonable search and seizure” on
HIPAA and the ADA, arguing that since those statutes
require “segregation” of protected information, the
fact that some of that information allegedly appeared
in the Defendants’ document productions means that
the mandatory security was breached; i.e.,
Defendants “searched” this segregated material and
“unreasonably” seized it. Response at 14- 16. The
cases cited supra (Vinson, Okwu, and Nickler)
continue to stand as a barrier to any argument that an
alleged HIPAA/ADA violation can somehow be
leveraged into a constitutional violation or a § 1983
claim. Furthermore, the Court has already ruled that
the conduct alleged here, “responding to a legitimate
PRA request [,] falls into the category of a legitimate
‘noninvestigatory work-related purpose’ and that
Plaintiff’s Fourth Amendment rights have not been
violated by Defendants’ conduct.” Dkt. No. 153 at 9
(citing City of Ontario v. Quon, 560 U.S. 746 (2010)).
This ruling is applicable to all the information
produced by Defendants of which Plaintiff complains.
It is the law of the case that no Fourth Amendment
violation occurred during the course of conduct
which is the subject of this lawsuit.
The second ground on which Plaintiff’s claim fails is
the assertion that the disclosure of her own personal
health/medical information to her created a breach of
her constitutional protections. This issue is covered in
more depth below; suffice it to say that Plaintiff has
failed to establish that delivering privileged
APPENDIX 22

information to a requester at that person’s request
violates the requester’s constitutional rights in any
fashion.
b) Do Defendants’ immunity defenses apply equally
to Plaintiff’s allegations concerning the disclosure of
medical information and alleged violations of HIPAA
and the ADA?
Regarding the qualified immunity defense applicable
to Plaintiff’s federal claims, and quoting from the
order on Defendants’ first summary judgment motion:
Determining whether an official is entitled to
summary judgment based on the affirmative defense
of qualified immunity requires applying a three-part
test. First, the court must ask whether "[t]aken in the
light most favorable to the party asserting the injury,
[] the facts alleged show the officer's conduct violated
a constitutional right?" If the answer is no, the officer
is entitled to qualified immunity.
Dkt. No. 153 at 9-10 (quoting Skoog v. County of
Clackamas, 469 F.3d 1221, 1229 (9th Cir.
2006)(emphasis supplied)). As in the previous
summary judgment motion, the Court has settled that
issue at the first question. Since Plaintiff has failed to
establish the violation of a constitutional right
stemming from the conduct of any of the Defendants,
they are all entitled to qualified immunity.
Plaintiff and Defendants expend a considerable
amount of briefing arguing whether the disclosures to
which Plaintiff objects were “negligent” - the
violation of a constitutional right requires direct and
intentional action and the Constitution does not
protect against negligent conduct by government
officials. Daniels v. Williams, 474 U.S. 327, 331 (1986).
APPENDIX 23

Defendants argue that, even if privileged information
concerning Plaintiff was produced, it was done so
inadvertently, and they are guilty of negligence at
worst. Plaintiff argues that her evidence of production
of “protected” information - regarding herself and
third parties - to both herself and Betz establishes
evidence of a “pattern and practice” by UW which
she argues (with no citation to case authority) “rise[s]
above mere negligence.” Response at 12.
Because Plaintiff has failed to establish the violation
of a constitutional right on which to ground her
federal claims, the Court need not and does not reach
the issue of whether Defendants’ conduct was more
than merely negligent. Without the violation of a
constitutional right, Defendants are entitled to
qualified immunity, and the issue of their mens rea is
immaterial.
Regarding the immunity defense applicable to
Plaintiff’s state claim, the law states:
No public agency, public official, public employee,
or custodian shall be liable, nor shall a cause of
action exist, for any loss or damage based upon the
release of a public record if the public agency, public
official, public employee, or custodian acted in good
faith in attempting to comply with the provisions of
this chapter.
RCW § 42.56.060. The Court previously found, based
on Defendants’ declarations, that there was sufficient
circumstantial evidence to support findings of good
faith on all the part of all Defendants. Dkt. No. 153 at
10-11. (See Deschamps v. Sheriff’s Office, 123

APPENDIX 24

Wn.App. 551, 559 (2004).6 Plaintiff produced no
evidence to the contrary in the most recent round of
briefing7 and the Court finds no reason to disturb its
original finding of “good faith” on the part of all the
individual Defendants. Having so ruled, Defendants
are entitled to immunity from Plaintiff’s state law
cause of action as well.
c) Is Plaintiff entitled to relief under any federal or
state cause of action for the release of any of her
protected information to herself, or are her claims
limited to the release of information to third parties?
Plaintiff attempts to fashion an argument that
somehow the production of her own information to
her “destroyed” its protected character. She cites to
a Supreme Court case for the proposition that “once
there is disclosure, the information belongs to the
public” (Nat’l Archives & Records Admin, v. Favish,
541 U.S. 157, 174 (2004)), but the case does not
6 *"

The standard definition of good faith is a state of mind indicating
honesty and lawfulness of purpose." Whaley v. Dep't. of Soc. & Health
Serv., 90 Wn. App. 658, 669, 956 P.2d 1100 (1998) (citing Tank v. State
Farm Fire & Cas. Co., 105 Wn.2d 381, 385, 715 P.2d 1133 (1986)[further
citations omitted]... We examine good faith by considering all the
relevant circumstances. Whaley, 90 Wn. App. at 669. Further, 'a
traditional negligence standard-based on what the [employee or entity]
reasonably should have known-is not used to determine whether
immunity will attach.' Whaley, 90 Wn. App. at 668-69. And '[although
good faith is usually a question of fact, it may be resolved on summary
judgment where no reasonable minds could differ on the question.'
Marthaller, 94 Wn. App. at 916." Deschamps v. Sheriff's Office, 123 Wn.
App. 551, 559 (2004)
7 Plaintiff does interpose a provision in Washington law which states that
the State of Washington is liable for damages for the tortious conduct of
its employees (RCW 4.92.090), but the State of Washington is no longer
a defendant in this case and the statute is inapplicable to the individual
defendants.
APPENDIX 25

involve disclosure of privileged information to the
person who held the privilege. She also quotes from a
U.S. District Court case which held that “[u]nder the
public-domain doctrine, materials normally
immunized from disclosure under FOIA lose their
protective cloak once disclosed and preserved in a
permanent public record” (Muslim Advocates v. U.S.
Dept, of Justice, 833 F.Supp. 2d 92, 99 (D.C. Cir.
2011)), but (1) this is not a FOIA case and (2) Plaintiff
has failed to identify anything disclosed about her
which is now “preserved in a permanent public
record” (in Muslim Advocates, the court was
referring to an official government document).
Defendants cite Muslim Advocates for the holding
that “a plaintiff asserting that information has been
previously disclosed bears the initial burden of
pointing to specific information in the public domain
that duplicates that being withheld.” Id. (quoting
Public Citizen v. Dept, of State, 11 F.3d 198, 201 (D.C.
Cir. 1993). Because Muslim Advocates is a FOIA case
where the Defendant was fighting to withhold
information, it is not on all fours with this case, but it
does make the point that, if Plaintiff is claiming that
her privileged information is now part of the “public
record,” it is her burden to point to where in the
public domain the information can be found. Without
evidence that it has been made available publicly,
not even the material produced to Betz qualifies as
“in the public domain;” the information produced to
her unquestionably does not fall into that category.
Plaintiff has no grounds upon which to assert a federal
or state cause of action on the basis of information
regarding her which was produced to her at her own
request.
APPENDIX 26

d) Does Plaintiff have standing to sue for the release
of any information regarding third parties which has
been produced to her?
Plaintiff herself makes it clear that she has not cited to
this information because she believes she has
standing to assert liability for its production.
Response at 23-24. It is, in her mind, circumstantial
evidence supporting her position that the production
of her protected information is part of a “pattern or
practice” by the UW which demonstrates that the
production of her information was not “merely”
negligence on Defendants’ part, but something
greater and more culpable.
It is a non-meritorious argument. First of all, the
information she cites as allegedly “protected
information”8 once again fails to meet the threshold
requirements (“shocking,” “degrading,”
“egregious,” “humiliating,” or “flagrant”) for
violation of a constitutional right.
Second, she presents no evidence (by way of expert
testimony or otherwise) that the sampling of third
party information which she presents is statistically
81. An "Activity Prescription Form" regarding modified duty which lists
activity limitations due to a workplace injury to the subject's right
shoulder. Dkt. No. 37-5 at 3.
2. A portion of an email from a UW Disability Services Consultant
identifying an accommodation being made to an employee; there is
nothing in the document concerning physical or medical condition. Dkt.
No. 37-5 at 20.
3. A fax from a UW "Leave Specialist" at UW Medical Center Human
Resources to a Dr. Schwarz listing physical restrictions for an employee
and asking for clarification about the amount of weight she can lift, carry
or push with her left hand; while the information regarding the subject's
left hand is arguably privileged, it is de miminis to say the least. Dkt. No.
37-5 at 22.
APPENDIX 27

significant; i.e., represents a sufficiently large enough
percentage of UW’s total annual PRA production to
legally constitute proof of a “pattern or practice” (a
term for which Plaintiff provides no legal definition).
Third, Plaintiff has no legal authority supporting her
argument that proof of a “pattern or practice” suffices
to lift Defendants’ conduct above mere “negligence”
and thus render them ineligible for the protections of
qualified immunity. The case she does cite (Board of
Comm’rs of Bryan County v. Brown, 520 U.S. 397
(1997)) is an “excessive force” case where the
question was whether to hold the county liable for the
actions of one officer and the issue was whether the
claimant had shown a lack of training by the
municipality. (“[T]he existence of a pattern of tortious
conduct by inadequately trained employees may
tend to show that the lack of proper training, rather
than a one-time negligent administration of the
program...”; Id. at 407-08). But Plaintiff has never
alleged a claim of “improper or inadequate training”
as a cause of action against any of the Defendants; it
appears nowhere in her amended complaint. And the
Bryan County case does not stand for the principle
that “a pattern of tortious conduct” somehow elevates
the alleged behavior above the realm of negligence;
“lack of proper training” itself is a form of
negligence.
Finally, the evidence Plaintiff presents regarding
production of the information concerning the third
parties was neither assembled nor produced by any
of the Defendants to this lawsuit. It constitutes no
proof of liability regarding the individuals she has
chosen to sue. It is the conclusion of this Court that
this evidence avails Plaintiff nothing in terms of
APPENDIX 28

establishing her right to proceed on the causes of
action she has asserted in this litigation.
Conclusion
Defendants have definitively demonstrated that there
are no outstanding issues of disputed material fact
before the Court and that they are entitled to
dismissal of the federal and state claims regarding
their production of privileged medical/health
information concerning Plaintiff. Their conduct entails
no violations of Plaintiff’s constitutional rights, and all
the Defendants are entitled for immunity under state
and federal law. Summary judgment is GRANTED as
to the remainder of Plaintiff’s claims and her case is
hereby DISMISSED with prejudice.
The clerk is ordered to provide copies of this order to
all counsel. Dated June 7, 2019.
S/ Marsha J. Pechman

APPENDIX 29

Document 153 Filed 02/11/19
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON AT SEATTLE
JULIE DALESSIO,
Plaintiff,
v.
UNIVERSITY OF WASHINGTON, et al.,
Defendants.
CASE NO. Cl7-642 MJP
ORDER ON DEFENDANTS’ MOTION FOR SUMMARY
JUDGMENT
The above-entitled Court, having received and
reviewed:
1. Defendants’ Motion for Summary Judgment
Dismissal of Plaintiff’s First Amended
Complaint (Dkt. No. 119),
2. Plaintiff’s Response to Defendants’ Motion for
Summary Judgment (Dkt. No. 130),
3. Defendants’ Reply re Motion for Summary
Judgment (Dkt. No. 132),
4. Plaintiff’s Objection to New Argument in
Defendant’s Reply to Summary Judgment
(Dkt. No. 134),
all attached declarations and exhibits, and relevant
portions of the record, rules as follows:
IT IS ORDERED that Defendants’ motion is
GRANTED IN PART and DENIED IN PART.
IT IS FURTHER ORDERED that Plaintiff’s § 1983 claims
against all Defendants regarding the publication of
her Social Security number and other personal data
(date of birth, telephone number, address, e-mail
address) are DISMISSED with prejudice.
APPENDIX 30

IT IS FURTHER ORDERED that Plaintiffs cause of
action for breach of contract is DISMISSED with
prejudice.
IT IS FURTHER ORDERED that Plaintiffs claims for
injunctive and declaratory relief are DISMISSED with
prejudice.
IT IS FURTHER ORDERED that Plaintiffs claims against
the Doe defendants are DISMISSED with prejudice.
IT IS FURTHER ORDERED that the remainder of
Defendants’ motion is DENIED.
IT IS FURTHER ORDERED that Plaintiffs motion to
strike the new arguments asserted in Defendants’
reply brief is GRANTED.
Background
The following facts are undisputed: Plaintiff was
employed by Defendant University of Washington
(“UW”) as a Clinical Technologist in the Department
of Laboratory Medicine from 1987 until her
resignation in 2003. On September 16, 2015, UW’s
Office of Public Records (“OPR”) received a records
request from an individual named David Betz under
the Public Records Act (ROW 42.56 et seq.; “PRA”)
for “all records maintained by the University of
Washington relating or pertaining to Julie Dalessio.”
(Dkt. No. 82 at 5, Jj 29.)
In response, Defendant and OPR Compliance Analyst
Alison Swenson produced two installments of
redacted records to Betz. UW released 370 pages of
documents to Betz; although there were many
redactions (and over 100 pages of documents
exempted under the PRA which were not provided at
all), Plaintiff’s Social Security number (“SSN”) was not
redacted from two of the pages; Plaintiff further
APPENDIX 31

alleges (and Defendants do not deny) that personal
information such as her date of birth, telephone
number, home address, and email address were not
completely redacted. Additionally, there was
information in the documents which Plaintiff alleges
was personal medical information protected under
the Health Information Portability and Accountability
Act (“HIPAA”) and the Americans with Disabilities
Act (“ADA”).9 (Dkt. Nos. 30-1,30-2.)
Following Betz’s request, Plaintiff submitted her own
PRA request to UW for the information which was
released to Betz. (Id. at 33.) On April 16, 2016, upon
receipt of the documents released to Betz under the
PRA, Plaintiff became aware of the unredacted
information of which she now complains.
On November 9, 2016, Plaintiff submitted a second
PRA request for “a digital copy of my departmental
personnel file, along with any other computer or
paper files that might contain records of inquiries
concerning my employment at the uw [sic], since my
resignation in January 2003.” (Dkt. No. 29, Decl. of
Palmer, Ex. A.) Those documents were provided (to
Plaintiff only) in two installments on January 26 and
February 15, 2017. (Id. at 3-4.)
Plaintiff’s amended complaint, filed by her appointed
counsel, names as defendants:
• University of Washington (breach of contract claim
only)
9 UW disputes that (1) the information Plaintiff claims was "protected
health information" was protected under HIPAA or the ADA, or that (2)
releasing it creates a § 1983 cause of action for Plaintiff. This argument
appeared for the first time in Defendants' reply brief. See discussion of
"Plaintiff's medical information claims" infra.
APPENDIX 32

• Alison Swenson, OPR Compliance Analyst (§ 1983
claims for violation of Plaintiff’s 4th
and 14th Amendment rights, and the tort of public
disclosure of private facts)10
• Eliza Saunders, Director of UW Office of Public
Records; Perry Tapper, UW Public Records
Compliance Officer; and Andrew Palmer, OPR
Compliance Analyst (§ 1983 claims for violation of
Plaintiff’s 4th and 14th Amendment rights, and the tort
of public disclosure of private facts)2
• Does 1-12, unnamed officials in various UW
departments (§ 1983 claims for violation of Plaintiff’s
Fourth and Fourteenth Amendment rights, and the
tort of public disclosure of private facts)11
(Dkt. No. 82,
98-203.) In addition to economic,
compensatory, and punitive damages, Plaintiff also
seeks declaratory, equitable, and injunctive relief, as
well as attorney’s fees and costs.
Discussion
The legal issues presented and properly briefed by
this motion are:
1. Did the disclosure of Plaintiff’s SSN and
personal information12 in response to Betz’s
10 Defendants argue (and Plaintiff does not dispute) that Plaintiff's claims
against all individual Defendants but Swenson are based on the UW's
production of documents to her personally, or for failures to adequately
supervise Swenson's production of documents to Betz. (See Dkt. No. 82,
47, 49.)
11 The Does have been named based on allegations that they collected
the documents which were assembled and redacted by Swenson and
transmitted to Betz and to Plaintiff. (Id. at H 39.)
12 The Court refers here to the information concerning Plaintiffs DOB,
home address, etc; not the disclosure of "medical and health
information" of which Plaintiff also complains.
APPENDIX 33

PRA request amount to a violation of Plaintiff’s
constitutional rights? NO.
2. Even if the answer to #1 were “YES,” are
Defendants entitled to immunity from liability
under federal and state law? YES.
I. Standard of review
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R.
Civ. P. 56(a). The moving party is entitled to
judgment as a matter of law when the nonmoving
party fails to make a sufficient showing on an
essential element of a claim in the case on which the
nonmoving party has the burden of proof. Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1985).
There is no genuine issue of fact for trial where the
record, taken as a whole, could not lead a rational
trier of fact to find for the non moving party.
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986) (nonmoving party must present
specific, significant probative evidence, not simply
“some metaphysical doubt.”); Fed. R. Civ. P.
56(e). Conversely, a genuine dispute over a material
fact exists if there is sufficient evidence supporting
the claimed factual dispute, requiring a judge or jury
to resolve the differing versions of the truth.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 253
(1986); T.W. Elec. Service Inc. v. Pacific Electrical
Contractors Association, 809 F.2d 626, 630 (9th Cir.
1987).
II. Constitutional privacy rights
APPENDIX 34

A violation of 42 U.S.C. § 1983 requires proof that “(1)
the defendants acting under color of state law (2)
deprived plaintiffs of rights secured by the
Constitution or federal statutes.” Gibson v. United
States, 781 F.2d 1334, 1338 (9th Cir. 1986). It is
undisputed that Defendants, employees of a state
university releasing documents pursuant to the PRA,
were acting under color of state law. Plaintiff bases
her “deprivation of rights” claims on purported
violations of the U.S. Constitution: specifically, the
Fourth Amendment (Dkt. No. 82,
98-119) and
Fourteenth Amendments. (Id.,ffl[ 147-165.)
a. Inadvertence and constitutional rights
The Court has no doubt that Defendant Swenson’s
failure to delete some references to
Plaintiff’s SSN and other personal data in the 370
pages of documents was inadvertent; at worst, an act
of negligence. Plaintiff does not attempt to ascribe or
prove malicious intent on Defendants’ part; in fact,
she acknowledges that the release of any private
information to Betz was accidental. (See Dkt. No. 37,
Decl. of Dalessio at 2.13)
The Supreme Court has made it clear that “negligent
conduct by a state official, even though causing
injury,” is not grounds for finding a deprivation of a
13 "I first contacted UW Office of Public Records (Dkt. 30-9 p.2) expecting
that the UW would want to mitigate damages, to at least assure me that
this would not be repeated, that these PRs containing my Social Security
Number, Date of birth, Name change information, Employee Id #, health
related information, financial information, and a selection of defamatory
documents would be properly redacted, and hoped that UW would
request that my neighbor, Betz (who is an attorney) destroy all copies of
personal, confidential information that he was mistakenly provided."
(Dkt. No. 37, Decl. of Dalessio at 2; emphasis supplied.)
APPENDIX 35

constitutional right. Daniels v. Williams, 474 U.S. 327,
31 (1986). The Daniels court ruled that the
Constitution is intended as a bulwark against abuses
of power, governmental power “used for purposes of
oppression,” and that
[f]ar from an abuse of power, lack of due care
suggests no more than a failure to measure up to the
conduct of a reasonable person. To hold that injury
caused by such conduct is a deprivation within the
meaning of the Fourteenth Amendment would
trivialize the centuries-old principle of due process of
law.
Id. at 332. The Constitution was not intended “to
supplant traditional tort law in laying down rules of
conduct to regulate liability for injuries that attend
living together in society.” Id.
Regarding the remaining named Defendants (other
than Swenson), there is no proof that any of them had
any involvement with the production of Plaintiff’s
records to Betz, beyond (1) supervisory
responsibility over Swenson or (2) general
managerial responsibility for the policies and
procedures concerning production of records and
files pursuant to document requests. Their immunity
from liability derives from (1) the general absence of
a violation of a “constitutional” right (as discussed
supra) and (2) the lack of any proximate causation
traceable to them which resulted in an injury to
Plaintiff.14
14 Contrary to what Defendants argue, it is not necessary to prove
"personal participation" by a defendant to establish the required
causation. "The requisite causal connection can be established not only
by some kind of direct personal participation in the deprivation, but also
by setting in motion a series of acts by others which the actor knows or
APPENDIX 36

The Doe Defendants, who apparently are named
because they were in the chain of production of the
documents eventually delivered to Betz, are even
further insulated from liability. These unnamed
defendants were acting in response to appropriate
requests from a university official who was in turn
responding to a legitimate PRA request. Again,
Plaintiff produces no evidence that any of the
unnamed Defendants had either an intention to
violate her constitutional rights, nor any knowledge
or reason to know that protected information
contained in the documents they were producing
would inadvertently be disclosed to an improper
recipient.
b. The “constitutional right to privacy”
The Court agrees with Defendants that Plaintiff has
confused her privacy interests with
her constitutional rights.
It is not in dispute that a person has a privacy interest
in avoiding the public disclosure of personal matters,
and that SSNs [sic] are recognized as sensitive and
highly confidential. See In re Crawford, 194 F.3d 954,
958 (9th Cir. 1999); see generally Doyle v. Wilson,
529 F. Supp. 1343, 1348 (D. Del. 1982). Even so, a
privacy interest and a sensitive or highly confidential
designation are not the same as having a
constitutional right to privacy.
reasonably should know would cause others to inflict the constitutional
injury." Arnold v. Int'l Bus. Machs. Corp., 637 F.2d 1350,1355 (9th Cir.
1981). The actor's (Swenson's) conduct was negligent at most, and there
is no proof offered that she was habitually derelict in her duties, so it is
not surprising that Plaintiff offers no proof that the other named
Defendants "knew or should have known" that the information would be
inadvertently disclosed.
APPENDIX 37

Mallak v. Aitkin County, 9 F. Supp. 3d 1046, 1063 (D.
Minn. 2014)(emphasis in original). To be fair, this is a
fluid and not entirely well-defined area of the law, but
the Court has no difficulty finding that the conduct of
which Plaintiff complains falls well outside of any
violation of privacy rights that rise to the level of a
constitutional infringement.
Privacy interests, the right of citizens to not have
certain kinds of personal information involuntarily
disseminated to the public, overlap to a limited
extent with the protections of the Constitution. The
Ninth Circuit has held that “the indiscriminate public
disclosure of SSNs, especially when accompanied by
names and addresses, may implicate the
constitutional right to informational privacy.” Ferm v.
United States Trustee (In re Crawford), 194 F.3d 954,
958 (9th Cir. 1999)(emphasis supplied). “The right to
informational privacy, however, is not absolute;
rather, it is a conditional right..." Id. (citing Doe v.
Attorney General, 941 F.2d 780, 796 (9th Cir. 1991)).13
Plaintiff has offered no evidence that the
dissemination of her SSN was “indiscriminate”16 (and
15 Other circuits draw the distinction between privacy interests and
constitutional rights even more tightly. The Sixth Circuit holds that the
constitutional protection afforded the disclosure of personal information
is a "narrowly tailored right, limited to circumstances where the
information disclosed was particularly sensitive and the persons to
whom it was disclosed were particularly dangerous vis-a-vis the
plaintiffs. We cannot conclude the social security numbers and birth
dates are tantamount to the sensitive information" previously held
entitled to constitutional protection. Barber v. Overton, 496 F.3d 449,
456 (6th Cir. 2007)(emphasis in original).
16 It is evident from Plaintiff's briefing that she considers the release of
her personal information - and information allegedly regarding third
parties - to herself to be part of a pattern or practice of improper
APPENDIX 38

even if she had, the most the Ninth Circuit would
concede is that such a practice “may” implicate a
constitutional right). The inadvertence of the
disclosure, coupled with the many examples of
redaction in the materials which were produced,
further compels a ruling that whatever incursion into
Plaintiff’s privacy may have occurred here, it does
not rise to the level of the violation of a constitutional
right.
Additionally, the Court notes that Plaintiff cites no
legal authority for the proposition that a University
employee, accessing the files of a former employee
in response to a valid records request, is engaging in
conduct which implicates an unreasonable “search
and seizure” under the Fourth Amendment. Even
more intrusive records searches (e.g., into the text
messages on a work phone) have been found non­
violative of the Fourth Amendment. “The search was
justified at its inception because there were
‘reasonable grounds for suspecting that the search
[was] necessary for a noninvestigatory work-related
purpose.’” City of Ontario v. Quon, 560 U.S. 746, 761
(2010)(internal citation omitted). It is the finding of
this Court that responding to a legitimate PRA request
falls into the category of a legitimate
“noninvestigatory work-related purpose” and that

conduct by Defendants, but she produces no legal authority for this
theory and the Court knows of none. Defendants did not move for
dismissal on this basis so this order will not rule definitively on that
theory, except to indicate that the Court did not consider that evidence
when analyzing whether the incidents complained of by Plaintiff
represent indiscriminate or otherwise illegal conduct, or amount to a
"policy or practice" which infringes the Constitution.
APPENDIX 39

Plaintiff’s Fourth Amendment rights have not been
violated by Defendants’ conduct.
III. Immunity defenses
a. Qualified immunity (federal)
In light of this Court’s ruling that Plaintiff has not
succeeded in establishing the violation
of a constitutional right, the qualified immunity
analysis becomes very simple. The Ninth Circuit’s
test for qualified immunity lays out the following
steps:
Determining whether an official is entitled to
summary judgment based on the affirmative defense
of qualified immunity requires applying a three-part
test. First, the court must ask whether "[tjaken in the
light most favorable to the party asserting the injury,
[] the facts alleged show the officer's conduct violated
a constitutional right?" If the answer is no, the officer
is entitled to qualified immunity. If the answer is yes,
the court must proceed to the next question: whether
the right was clearly established at the time the
officer acted. That is, "whether it would be clear to a
reasonable officer that his conduct was unlawful in
the situation he confronted." If the answer is no, the
officer is entitled to qualified immunity. If the answer
is yes, the court must answer the final question:
whether the officer could have believed, "reasonably
but mistakenly . .. that his or her conduct did not
violate a clearly established constitutional right." If
the answer is yes, the officer is entitled to qualified
immunity. If the answer is no, he is not. Skoog v.
County of Clackamas, 469 F.3d 1221, 1229 (9th Cir.
2006)(emphasis supplied). The Court need not take
its analysis any further than the first question: none of
APPENDIX 40

the Defendants’ actions in this lawsuit violated
Plaintiff’s constitutional rights, therefore they are
uniformly entitled to qualified immunity,
b. Qualified immunity (state)
Washington’s PRA contains the following provision:
No public agency, public official, public employee,
or custodian shall be liable, nor shall a cause of
action exist, for any loss or damage based upon the
release of a public record if the public agency, public
official, public employee, or custodian acted in good
faith in attempting to comply with the provisions of
this chapter.
RCW § 42.56.060. Defendants interpose this as a
defense to Plaintiff’s seventh cause of action, the
common law tort of public disclosure of private facts.
(Dkt.No.82.ini 191-201.)
Plaintiff makes two arguments in response to this, one
of which is non-meritorious ab initio and another for
which she at least has some legal authority. First, she
argues that, because Defendants did not comply with
the law by releasing her SSN, they did not act in good
faith. She cites no authority for this proposition and
the Court rejects it.
Secondly, she cites case law that it is Defendants’
burden to establish facts which are within
Defendants’ personal knowledge (e.g., the state of
mind of Defendant Swenson). Gomez v. Toledo, 446
U.S. 635, 641 (1980). Defendants, for reasons best
known to them, fail to include any representation in
Defendant Swenson’s declaration (Dkt. No. 30) that
she was “attempting in good faith” to discharge her
duties under the PRA and UW’s policies.

APPENDIX 41

In the absence of that, the Court refers to her detailed
account of (1) the training she received in responding
to PRA requests, (2) the number of PRA requests she
processed in 2015 (the year Betz made his request),
and (3) the fact that, in responding to Betz’s request,
she heavily redacted the material she produced and
“created an exemption log regarding 101 pages
determined to be wholly exempt from disclosure
under the Public Records Act.” (Id. at 3, 5, and 6.)
There is case law in Washington which permits a
finding on summary judgment of good faith where a
defendant has made “a prima facie showing of good
faith in her declaration and [] there was nothing in the
record that suggested that the [defendant] acted with
improper purpose.” Marthaller v. King County Hosp.,
94 Wn.App. 911, 916-17 (1999). The Court finds that
Defendant Swenson’s declaration satisfies that
standard and further finds on that basis that Swenson
is entitled to immunity under RCW 42.56.060.
The Courts enters a similar finding as regards
Defendant Andrew Palmer (the UW Compliance
Analyst who, as mentioned supra, simply produced
Plaintiff’s departmental file for her at her request; see
AC at 49). Palmer avers that he “interpreted
[Plaintiff’s] request as a former employee’s request
for her own file, meaning it would not be redacted.”
(Dkt. No. 29, Decl. of Palmer at 5.) Plaintiff presents
neither statutory nor case authority that this is not in
compliance with the state of the law regarding
production of documents under the PRA, and Palmer
is entitled to immunity based on the state statute, for
the same reasons as Swenson.
Regarding the remaining named Defendants Saunders and Tapper - the Court makes a similar
APPENDIX 42

finding of good faith based on their declarations (Dkt.
Nos. 120 and 121), which detail their responsibilities
for implementing, overseeing, and improving the
system by which UW complies with the PRA, as well
as their lack of any personal involvement in the
production of the records to either Betz or Plaintiff
herself. The evidence concerning them is completely
lacking anything to suggest they operated with an
improper purpose. Plaintiff having come forward with
nothing more than the inadvertent production of
some of her private information, these Defendants
will be held immune from liability in accordance with
RCW § 42.56.060.17
IV. Breach of contract claim
Plaintiff has asserted a breach of contract claim
against UW only, alleging that among the material
produced were documents which were supposed to
have been removed from her “official personnel file
and from all Department of Laboratory Medicine
files” pursuant to a 2003 settlement agreement. (AC
at
183-190.) She alleges that these “private and
confidential documents” were disclosed through PRA
requests to “Betz and others” (it is not specified who
the “others” were; the Court speculates that Plaintiff
refers to the records produced to her at her own
request). (Id. at 190.)
17 Some portion of Plaintiffs legal theory is based on allegations that all
the Defendants "devised, implemented, enforced, encouraged, [and/or]
sanctioned" policies and practices which violated Plaintiffs
constitutional rights.
(See AC at H 158.) Aside from the isolated incident to which she was
subject, she produces no proof of any policies or practices which support
that allegation and cannot attach liability to any of the Defendants on
this basis.
APPENDIX 43

Plaintiff’s claim is subject to a statute of limitations
defense. Under Washington law, the limitations
period for all contract claims is six years (RCW
4.16.040). Fatal to Plaintiff’s cause of action, the
limitations clock on a contract claim starts ticking
from the date of the accrual of the claim; there is no
“discovery rule” in this state as far as breach of (the
majority of) contract claims are concerned.18
Therefore, the latest date upon which Plaintiff could
have sued under this cause of action was in 2009.
Plaintiff cites Washington case law which appears to
suggest that a “discovery rule” is permissible in
Washington contract cases. Cambridge Townhomes,
LLC v. Pacific Star Roofing, Inc., 166 Wn.2d 475, 485
(2009). But the case cited for that proposition by the
Washington Supreme Court very specifically limits
application of the discovery rule to “breach of
construction contracts where latent defects are
alleged.” 1000 Va. Ltd. P’ship v. Vertecs, 158 Wn.2d
566, 582 (2006)(emphasis supplied). This case does
not involve construction contracts or latent defects. If
a breach of Plaintiff’s Settlement Agreement with UW
occurred, it occurred at the point that UW failed to
18 The statute of limitations for an action upon a written contract is six
years. RCW 4.16.040(1). "Statutes of limitations do not begin to run until
a cause of action accrues." 1000 Va. Ltd. P'ship, 158 Wn.2d at 575 (citing
RCW 4.16.005). A cause of action usually accrues "when the party has
the right to apply to a court for relief." Id. "Under the discovery rule, a
cause of action does not accrue — and as a result the statute of
limitations does not begin to run — until the plaintiff knows, or has
reason to know, the factual basis for the cause of action." Bowles v.
Dep't of Ret. Sys., 121 Wn.2d 52, 79-80, 847 P.2d 440 (1993).
Our Supreme Court "has consistently held that accrual of a contract
action occurs on breach." 1000 Va. Ltd. P'ship, 158 Wn.2d at 576.
(Kinney v. Cook, 150 Wn. App. 187,192-93 (2009).)
APPENDIX 44

remove the documents from her file as required by
the agreement; i.e., in 2003. Defendants are correct Plaintiff is barred from bringing this claim by the
statute of limitations.
V. Injunctive and declaratory relief
Injunctive relief is appropriate only where Plaintiff
has a “well-grounded fear” of immediate invasion of
the rights she is suing to protect. WFSE v. State of
Washington, 99 Wn.2d 878, 888 (1983). Plaintiff
alleges, without any supporting evidence, that she
has a “credible fear of her medical and health
information being produced again by Defendants.”
(Response at 24.) She also says that she is entitled to
enjoin Defendants from producing her full name and
corresponding birthdate (citing Article I, Section 7 of
the Washington State Constitution), but Defendants
have never argued that they had a right under the
PRA to disclose that information. Defendants are
entitled as a matter of law to have Plaintiff’s request
for injunctive relief dismissed.
Regarding her request for declaratory relief, Plaintiff
again presents arguments that imply that Defendants
have taken a position that they had a right to divulge
the information regarding which she has sued them.
(“At no time have Defendants stated they would stop
producing Ms. Dalessio’s private health and medical
information to others.” Id.) Defendants have never
claimed that they were entitled to disclose any
information which is exempted from production by
the PRA or otherwise prohibited; their position has
consistently been that whatever information was
produced improperly was produced inadvertently,
not according to any policy or belief that they were
entitled to do so.
APPENDIX 45

A request for declaratory relief should be dismissed
if it is “duplicative of existing claims.” Englewood
Lending, Inc. v. G&G Coachella Invs., 651 F.Supp.2d
1141,1145 (C.D.Cal. 2009). Should Plaintiff prevail on
any of her claims, there is no need to “declare” that
Defendants’ conduct was illegal; it is merely
redundant. Her request for declaratory relief will be
dismissed.
VI. Plaintiff’s medical information claims
Even a cursory reading of Plaintiff’s complaint makes
it clear that she is suing Defendants for more than just
the release of two SSN’s and some personal
information. The complaint is replete with allegations
that the documents produced to both Betz and herself
contained medical/health information that Plaintiff
believes is protected from disclosure by both HIPAA
and the ADA. (See AC at 36, 50, 65, 72, 83, 84, 87,
157, 167, 194.)
However, Defendants’ opening brief is solely
concerned with the release of the SSN’s - there is not
a single mention of medical or health information in
their initial arguments. Plaintiff seizes upon this in her
response, pointing out that (even if the Court were to
accept Defendants’ summary judgment arguments
and dismiss the claims they were attacking) Plaintiff
would still have her claims regarding the disclosure
of the medical/health information. In their reply brief,
Defendants attempt to rebut the medical/health
information claims, arguing that (1) the information is
not the kind protected from disclosure (or is illegible
in the documents they produced) and (2) there are no
§ 1983 claims available under HIPAA or the ADA.

APPENDIX 46

Unsurprisingly, Plaintiff filed a surreply to strike this
new argument. “It is well established that new
arguments and evidence presented for the first time
in a Reply are waived.” Docusign, Inc. v. Sertifi, Inc.,
468 F.Supp.2d 1305 1307 (W.D.Wash. 2006)(citing
U.S. v. Patterson, 230 F.3d 1168, 1172 (9th Cir. 2000).
The motion is well-taken; the argument is untimely
and will be stricken.
Conclusion
Regarding Plaintiff’s claim that the inadvertent
disclosure of her SSN and other personal data
amounted to a violation of her rights under the U.S.
Constitution, the Court finds that there are no
disputed issues of material fact and that Defendants
are entitled to summary judgment as a matter of law.
The portion of Plaintiff’s lawsuit will be dismissed
with prejudice. Her breach of contract claim is barred
by the applicable statute of limitations, and she has
established no legal basis for her requests for
injunctive or declaratory relief; those claims will also
be dismissed with prejudice. The unnamed Doe
Defendants, alleged only to have produced
documents as they were required to do by state law
and university policy, will be dismissed.
Defendants’ untimely attempt to rebut Plaintiffs
claims regarding her medical/health information will
be stricken. The Court expresses its doubts about the
viability of those claims, as well as Plaintiff’s claims
that the disclosure of her personal information to her,
plus the alleged disclosure of information concerning
third parties, is actionable, but as Defendants made
no motion in that regard, a ruling on that portion of
Plaintiff’s lawsuit awaits another day. The Court also
notes that Plaintiff has, as of yet, offered no evidence
APPENDIX 47

that the conduct of which she complains has resulted
in any legally-cognizable damages, but again this
portion of Plaintiff’s proof was not challenged by
Defendants.
The clerk is ordered to provide copies of this order
to all counsel. Dated February 11, 2019. ORDER ON
DEFENDANTS’ MOTION FOR SUMMARYJUDGMENT 16
S/ Marsha J. Pechman
United States Senior District Judge

APPENDIX 48

Document 80 Filed 04/06/18
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON AT SEATTLE
JULIE DALESSIO,
Plaintiff, v.
UNIVERSITY OF WASHINGTON, et al.,
Defendants.
The Court, having received and reviewed:
CASE NO. C17-642 MJP ORDER ON MOTION FOR
LEAVE TO FILE AMENDED COMPLAINT
1. Plaintiff’s Motion for Leave to File Amended
Complaint (Dkt. No. 74),
2. Defendant University of Washington’s
Response to Plaintiff’s Motion for Leave to File
Amended Complaint (Dkt. No. 75),
3. Plaintiff’s Reply in Support of Motion for Leave
to File Amended Complaint (Dkt. No. 77),
all attached declarations and exhibits, and relevant
portions of the record, rules as follows: IT IS
ORDERED that the motion is GRANTED IN PART and
DENIED IN PART.
Plaintiff will be permitted to file her amended
complaint as proposed with the exception of the
allegations and claims concerning the acts of counsel
(and counsel’s staff) for the Defendant University of
Washington. Ms. Freeman, Mr. Chen, and Ms. Walker
may not be added as defendants in the amended
pleading.
IT IS FURTHER ORDERED that Plaintiff file her First
Amended Complaint (revised as per this order) by
no later than April 13, 2018.
Discussion
APPENDIX 49

Counsel was appointed to represent Plaintiff on
January 19, 2018. (Dkt. No. 67.) One of new-appointed
counsel’s first acts was to submit a motion for leave to
file an amended complaint. The proposed amended
complaint (1) eliminates claims related to Plaintiffs’
pre- 2003 employment, as well as claims under
FERPA, FOIA and the Public Records Act and claims
for defamation, libel and RCW 40.14 privacy; (2) re­
alleges Plaintiff’s breach of contract claim; and (3)
adds new claims against nineteen new parties,
including four named University of Washington
(“UW”) employees, twelve unidentified UW
employees, three litigation attorneys/staff, and a
claim for punitive damages. (Dkt. No. 74-1.)
Defendant UW opposes the addition of both the new
claims and the new parties. As regards all claims and
parties except those related to the litigation attorneys
and their staff, the Court is satisfied that the amended
complaint is timely, not unduly prejudicial and is
being brought in good faith. Plaintiff will be
permitted to file an amended complaint as to those
claims and parties.
The Court agrees with Defendant, however, that
litigation counsel and their staff are entitled to
absolute immunity and are not properly added as
defendants to this action. There is longstanding
precedent for the absolute immunity of attorneys and
any personnel “who perform official functions in the
judicial process” from § 1983 liability. Briscoe v.
LaHue, 460 U.S. 325, 334 (1983). Plaintiff attempts to
fit her claims against UW’s counsel and their staff into
an exception carved out for the performance of
“administrative duties.” Buckley v. Fitzsimmons, 509
U.S. 259, 273 (1993). The Court is not persuaded.
APPENDIX 50

While defense counsel described the publication of
the information which forms the basis of Plaintiff’s
claim against UW’s counsel and staff as “an
inadvertent administrative error” (Dkt. No. 76, Decl.
of Freeman at 9), that does not convert the
production of evidence in the course of litigation into
an “administrative duty.” It is part and parcel of the
performance of “official duties in the judicial
process” and as such is entitled to the absolute
immunity which is accorded counsel (and their staff)
in this process.
Plaintiff is directed to file an amended complaint,
revised in accordance with this order, no later than
April 13, 2018.
The clerk is ordered to provide copies of this order to
all counsel. Dated: April 6, 2018.
S/ The Honorable Marsha J. Pechman United States
Senior District Court Judge

APPENDIX 51

Document 81 Filed 04/12/18
The Honorable Marsha J. Pechman
UNITED STATES DISTRICT COURT WESTERN
DISTRICT OF WASHINGTON
JULIE DALESSIO, an individual, Plaintiff,
v.
UNIVERSITY OF WASHINGTON, a Washington Public
Corporation; Eliza Saunders, Director of the Office of
Public Records, in her personal and official capacity;
Alison Swenson, Compliance Analyst, in her personal
capacity; Perry Tapper, Public Records Compliance
Officer, in his personal capacity; Andrew Palmer,
Compliance Analyst, in his personal capacity; Jayne
Freeman, a Special Assistant Attorney General, in her
personal and official capacity; Derek Chen, an
attorney working under the Special Assistant
Attorney General, in his personal and official
capacity; LaHoma Walker, a Legal Assistant working
under Special Assistant Attorney General, in her
personal and official capacity; John or Jane Does 1 12, in his or her personal capacity,
Defendants.
No. 2:17-cv-00642-MJP
First Amended Complaint Jury Trial Requested
Plaintiff Julie Dalessio alleges for her Complaint
against collectively the Defendants on personal
knowledge as to her own activities, and to
information and belief as to the activities of
others, as follows:
I. Introduction
1. Pursuant to 42 U.S.C § 1983, Plaintiff alleges the
deprivation of rights guaranteed to her by the Fourth,
APPENDIX 52

Fifth and Fourteenth Amendments of the United States
Constitution. She seeks declaratory relief, equitable
relief, damages, attorney’s fees and litigation
expenses/costs.
II. Jurisdiction
2. This case arises under the United States and
Washington Constitutions and 42 U.S.C. §1983.
3. This court has jurisdiction by virtue of 28 U.S.C. §§
1331, 1343, 1443 and 1446. Further this Court has
jurisdiction to issue declaratory relief under 28 U.S.C.
§§ 2201 and 2202. This Court has supplemental or
pendant jurisdiction over Washington State claims
made under 28 U.S.C. § 1367(a) and in particular
Washington State claims made against the University
of Washington. The University of Washington has
consented to federal court jurisdiction for purposes of
considering the issues of common law privacy
violations, breach of contract, libel, civil rights
violations, and injunctive relief raised in this action.
4. Venue is proper in this Court under 28 U.S.C §
1391(b)(2) because the University of Washington
maintains all or substantially all of the records at
issue in Seattle Washington, or because Seattle is
where the decision was made to wrongfully produce
the records at issue.
III. Parties
5. Plaintiff Julie Dalessio (“Dalessio”), is a former a
former classified staff employee of
the University of Washington, and at all relevant
times a resident of the state of Washington.
6. Defendant University of Washington (“UW”) is a
Washington public corporation.
APPENDIX 53

7. Defendant Eliza Saunders (“Saunders”), is an
individual UW official serving as a
Director of the Office of Public Records at the UW’s
Office of Public Records and Open Public Meetings.
Defendant Saunders is a “person” as that term is used
in 42 U.S.C. § 1983 and is being sued in her personal
and official capacities. In all of her actions and
omissions alleged herein, Defendant Saunders was
acting under the color of state law.
8. Defendant Perry Tapper (“Tapper”), is an
individual UW official serving as a Public Records
Compliance Officer at the UW’s Office of Public
Records and Open Public Meetings.
Defendant Tapper is a “person” as that term is used
in 42 U.S.C. § 1983 and is being sued in his
personal capacity. In all of his actions and omissions
alleged herein, Defendant Tapper was
acting under the color of state law.
9. Defendant Andrew Palmer (“Palmer”), is an
individual UW official serving as a Compliance
Analyst at the UW’s Office of Public Records and
Open Public Meetings. Defendant Palmer is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in his personal capacity. In all of his
actions and omissions alleged herein, Defendant
Palmer was acting under the color of state law.
10. Defendant Alison Swenson (“Swenson”) is an
individual UW official serving as a Compliance
Analyst at the UW’s Office of Public Records and
Open Public Meetings. Defendant Swenson is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in her personal capacity. In all of her

APPENDIX 54

actions and omissions alleged herein, Defendant
Swenson was acting under the color of state law.
11. [Stricken] Defendant Jayne Freeman (“Freeman”)
is an individual contracted Special
15 Assistant Attorney General with the Office of the
Washington State Attorney General to provide legal
services to Defendant UW. Defendant Freeman is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in her personal capacity. In all of her
actions and omissions alleged herein, Defendant
Freeman was acting under the color of state law.
12. [Stricken] Defendant Derek Chen (“Chen”) is an
individual attorney working under the Special
Assistant Attorney General with the Office of the
Washington State Attorney General to provide legal
services to Defendant UW. Defendant Chen is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in his personal capacity. In all of his
actions and omissions alleged herein, Defendant
Chen was acting under the color of state law.
13. [Stricken] Defendant LaHoma Walker (“Walker”)
is an individual legal assistant
working under the Special Assistant Attorney General
with the Office of the Washington State
Attorney General to provide legal services to
Defendant UW. Defendant Walker is a “person” as
that term is used in 42 U.S.C. § 1983 and is being sued
in her personal capacity. In all of his
actions and omissions alleged herein, Defendant
Walker was acting under the color of state law.
14. Defendant John or Jane Doe 1 (“Doe 1”) is
believed to be an individual UW official serving at the
UW’s Department of Laboratory Medicine. Defendant
APPENDIX 55

Doe 1 is a “person” as that term is used in 42 U.S.C. §
1983 and is being sued in his/her personal capacity.
In all of his/her actions and omissions alleged herein,
Defendant Doe 1 was acting under the color of state
law.
15. Defendant John or Jane Doe 2 (“Doe 2”) is
believed to be an individual UW official serving at the
UW’s Department of Laboratory Medicine. Defendant
Doe 2 is a “person” as that term is used in 42 U.S.C. §
1983 and is being sued in his/her personal capacity.
In all of his/her
actions and omissions alleged herein, Defendant Doe
2 was acting under the color of state law.
16. Defendant John or Jane Doe 3 (“Doe 3”) is
believed to be an individual UW official
of state law.
17. Defendant John or Jane Doe 4 (“Doe 4”) is
believed to be an individual UW official
serving at the UW’s Department of Human Resources
of UW Medicine. Defendant Doe 4 is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in his/her personal capacity.In all of
his/her actions and omissions alleged herein,
Defendant Doe 4 was acting under the color of state
law.
18. Defendant John or Jane Doe 5 (“Doe 5”) is
believed to be an individual UW official
serving at the UW’s Department of Human Resources
of UW Medicine. Defendant Doe 5 is a
“person” as that term is used in 42 U.S.C. § 1983 and
is being sued in his/her personal capacity.

APPENDIX 56

In all of his/her actions and omissions alleged herein,
Defendant Doe 5 was acting under the color of state
law.
19. Defendant John or Jane Doe 6 (“Doe 6”) is
believed to be an individual UW official
serving at the UW’s Department of Payroll Services.
Defendant Doe 6 is a “person” as that term is used in
42 U.S.C. § 1983 and is being sued in his/her personal
capacity. In all of his/her
actions and omissions alleged herein, Defendant Doe
6 was acting under the color of state law.
20. Defendant John or Jane Doe 7 (“Doe 7”) is
believed to be an individual UW official
serving at the UW’s Office of Finance and
Administration. Defendant Doe 7 is a “person” as that
term is used in 42 U.S.C. § 1983 and is being sued in
his/her personal capacity. In all of his/her actions and
omissions alleged herein, Defendant Doe 7 was
acting under the color of state law.
21. Defendant John or Jane Doe 8 (“Doe 8”) is
believed to be an individual UW official serving at the
UW’s Office of Records Management Services.
Defendant Doe 8 is a “person” as
that term is used in 42 U.S.C. § 1983 and is being sued
in his/her personal capacity. In all of
his/her actions and omissions alleged herein,
Defendant Doe 8 was acting under the color of state
law.
22. Defendant John or Jane Doe 9 (“Doe 9”) is
believed to be an individual UW official
serving at the UW’s Department of Legal and
Business Affairs of UW Medicine. Defendant Doe
APPENDIX 57

9 is a “person” as that term is used in 42 U.S.C. § 1983
and is being sued in his/her personal
capacity. In all of his/her actions and omissions
alleged herein, Defendant Doe 8 was acting
under the color of state law.
23. Defendant John or Jane Doe 10 (“Doe 10”) is
believed to be an individual UW official serving at the
UW’s Office of Chief Health System Officer of UW
Medicine. Defendant Doe 10 is a “person” as that
term is used in 42 U.S.C. § 1983 and is being sued in
his/her personal capacity. In all of his/her actions and
omissions alleged herein, Defendant Doe 10 was
acting under the color of state law.
24. Defendant John or Jane Doe 11 (“Doe 11”) is
believed to be an individual UW official serving at the
UW’s Department of Records and Management
Services at UW Medicine.
Defendant Doe 11 is a “person” as that term is used in
42 U.S.C. § 1983 and is being sued in
his/her personal capacity. In all of his/her actions and
omissions alleged herein, Defendant Doe
11 was acting under the color of state law.
25. Defendant John or Jane Doe 12 (“Doe 12”) is
believed to be an individual UW official serving at the
UW’s Office of Disability Services. Defendant Doe 12
is a “person” as that term is used in 42 U.S.C. § 1983
and is being sued in his/her personal capacity. In all
of his/her
actions and omissions alleged herein, Defendant Doe
12 was acting under the color of state law.
IV. Facts

APPENDIX 58

26. Defendant UW’s Office of Public Records and
Open Public Meetings oversees UW’s compliance
with the Washington Public Records Act, ROW
42.56.001, et. seq. (“PRA”).
27. David Betz (“Betz”) is an individual who from
2005-16 lived in an adjacent property to Dalessio.
28. In May 2015, Betz sued Dalessio in King County
Superior Court claiming that when Dalessio built a
fence, it was on Betz’s property. The case number is
15-2-17152-9.
29. On September 16, 2015, while litigation was still
on-going, Betz made a request under the PRA to
Defendant UW for “all records maintained by the
University of Washington relating or pertaining to
Julie Dalessio.” In making the PRA request, Betz used
Dalessio’s student email address,
jdaless@u.washington.edu, as a tool to identify
Dalessio. Dalessio received the email address,
jdaless@u.washington.edu, while she was a student
at UW obtaining her Master’s Degree in Laboratory
Medicine.
30. On November 10, 2015, Defendant Swenson
responded to Betz’s request made under the PRA and
verified that for this installment of documents “the
appropriate redactions” were made according to the
PRA. The bases for the redactions are: FERPA Student
Privacy 20 U.S.C. § 1232; RCW 42.56.050 Invasion of
Privacy; RCW 42.56.070(1) Other Statute; RCW
42.56.230(3) Employee Privacy; RCW 42.56.230(3)
Taxpayer Information; RCW 42.56.230(3) Employee
Information.
31. On December 04, 2015, Defendant Swenson
responded to Betz’s request made under
APPENDIX 59

the PRA and again verified that for this second and
final installment of documents “made the
appropriate redactions and/or exemptions”
according to the PRA. The bases for the redactions or
exemptions, according to Defendant Swenson are the
following: FERPA Student Privacy 20 U.S.C. § 1232;
HIPAA 40 C.F.R. Part 160, 164; RCW 42.56.050
Invasion of Privacy; RCW 42.56.070(1) Other Statute;
RCW 42.56.230(3) Employee Privacy; RCW
42.56.230(3) Employee Performance Evaluation; RCW
42.56.230(3) Taxpayer Information; RCW 42.56.250(2)
Employment Application; RCW 42.56.230(3)
Employee Information; RCW 70.02.020 Medical
32. On or around March 22, 2016, Betz revealed in
discovery that he had obtained records from
Defendant UW that he planned to use as evidence
against Ms. Dalessio in his
adverse possession lawsuit. When filed with the King
County Superior Court these documents
would become public record that Dalessio would
have no control over.
33. When Dalessio learned of Betz’s PRA request, she
immediately became concerned for
the security of her private information held by
Defendant UW, and consequently made her own
PRA request to Defendant UW for a copy of the
records that Betz received from his PRA request.
Dalessio’s request was designated as PR-2016-00218
by Defendant UW.
34. On or around April 10, 2016, Dalessio received a
disc containing PR-2016-00218,
records responsive to her "public records request for
a copy of the records released for PR 2015APPENDIX 60

00570."
35. From the documentation provided, it appears that
Defendant Swenson produced the records to both
PRA requests: Dalessio’s PRA request PR-2016-00218;
Betz’s PRA request PR 2015-00570.
36. In response to Dalessio’s PRA request number PR2016-00218, in relevant part,
Defendant Swenson produced the following private,
confidential, personal information about
Dalessio to Betz: Dalessio’s social security number;
Dalessio’s date of birth, Dalessio’s place of birth;
Dalessio’s personal home address; Dalessio’s
personal phone number; Dalessio’s personal email
address; Dalessio’s employee identification number;
Dalessio’s payroll records; Dalessio’s protected
health information under both federal laws the Health
Insurance Portability and Accountability Act
(“HIPAA”), and the Americans with Disabilities Act
(“ADA”); Dalessio’s requests for accommodation
under the ADA; comments by other employees about
Dalessio’s disabilities; Dalessio’s employee job
classification and salary and benefits information;
Dalessio’s employment security records; Dalessio’s
job performance evaluations and allegations related
to alleged misconduct; Dalessio’s work and leave
records; Dalessio’s previous legal surnames;
Dalessio’s signature. These records are personally
identifiable, private and confidential which could
lead to identity theft.
37. On April 17, 2016, out of fear that her private,
confidential, personal information was
unlawfully being disclosed to known and unknown
third parties Dalessio contacted Defendant Swenson
APPENDIX 61

by email and Defendant UW’s Office of Public
Records by United States Postal Service alerting them
that Betz “was given confidential information,
including my social security number and date of birth
along with the other health and personnel related,
confidential, exempt information.”
38. On April 27, 2016, Dalessio did receive a
response from Defendant Swenson which
only attached Betz’s original request, PR 2015-00570,
and did not address Dalessio’s stated
concerns about her private confidential information.
39. A request summary report, generated on April
10, 2017, appears to identify persons
employed by Defendant UW who searched for and
transmitted documents to Defendant UW’s
Office of Public Records and Open Public Meetings
that were produced in response to request PR 201500570 submitted by Betz. The request summary
report identifies Defendant UW employees who
helped fulfill request PR 2015-00570. It believed that
the persons who were involved in assisting
Defendant UW’s Office of Public Records and Public
Meetings Act: Doe 1; Doe 2; Doe 3; Doe 4; Doe 5; Doe
6; Doe 7; Doe 8; Doe 9; Doe 10; Doe 11; Doe 12.
40. It is under personal belief that Defendant Tapper
approved Defendant Swenson’s
production of documents before it was released to
either Betz or Dalessio through requests PR2016-00218 and PR 2015-00570. The belief is based
upon the fact that the initial “PMT”
appeared on the request summary report for PR
2015-00570, and also because Defendant
APPENDIX 62

Swenson identified Defendant Tapper as her
Supervisor at the time the requests were made.
41. On May 20, 2016, Dalessio made a telephone call
to Defendant UW’s Office of
Public Records and Open Public Meetings and spoke
with Defendant Tapper following-up on
Dalessio’s April 17, 2016 communications to
Defendant Swenson and Defendant UW that went
unanswered about Dalessio’s private and
confidential information unlawfully being disclosed
via the Public Records Act. Defendant Tapper
Dalessio did not respond to Dalessio’s concern
directly, but stated Defendant UW’s Office of Public
Records and Open Public Meetings does not respond
to requests for information. Further, Defendant
Tapper made Dalessio believe that the only way she
could receive a response from Defendant UW’s Office
of Public Records and Open Public Meetings would
be to submit a PRA request.
42. It is under belief that Defendant Saunders acted
as the Director of the UW Office of
Public Records And Open Meetings throughout these
occurrences. It is believed she was
instrumental in the oversight and implementation of
relevant Public Records Act disclosures.
43. On October 14, 2016, Dalessio made a telephone
call to Defendant UW’s Office of
Ombudsman speaking to Ombud Chuck Sloane
(“Sloane”). Dalessio conveyed to Sloane her
fears about her private and confidential information
unlawfully being disclosed via PRA requests.

APPENDIX 63

Sloane referred Dalessio to the Office of the Attorney
General - University of Washington and
Washington Department of Enterprise Services.
Defendant UW has its own division of the
Washington Department of Enterprise Services
known as UW Department of Risk Services.
44. On October 21, 2016, Dalessio filed claims with
both Defendant UW Department of
Risk Services, and Washington Department of
Enterprise Services. The claims gave legal notice to
both entities that Dalessio was legally wronged by
Defendant UW’s production of documents
under the PRA to Betz’s request because of: privacy
violations, reputation injured, and claimed actual
damages including mental pain and suffering, and
breach of contract. Dalessio made both of these
notices of claims pursuant to RCW 4.92.100.
45. On or about October 2016, Dalessio contacted
Office of the Attorney General at the
University of Washington and spoke with Assistant
Attorney General Rob Kosin (“Kosin”).
Kosin told Dalessio that there was nothing he could
do.
46. On personal belief, Dalessio feared many
departments within Defendant UW were disclosing or
could possibly disclose Dalessio’s personal, private
information, based upon the unlawful PRA disclosure
to Betz.
47. On November 09, 2016, Dalessio submitted a PRA
request to Defendant UW’s Office
of Public Records and Open Public Meetings.
Defendant UW designated this request as PRAPPENDIX 64

2016-00760. This request sought “a digital copy of
[Dalessio’s] departmental personnel file,
along with any other computer or paper files that
might contain records of inquiries concerning
[Dalessio’s] employment at the UW since [Dalessio’s]
resignation in 2003. [Dalessio] is also requesting any
other records of departmental communications,
concerning [Dalessio’s]employment with the UW,
including phone logs, calendars, and emails
exchanged ith human resources, former supervisor
Rhoda Ashley Morrow or others concerning
[Dalessio].” Dalessio also asked UW to contact her if
it needed clarification about the scope or meaning of
her request.
48. On February 02, 2017, Defendant UW denied
Dalessio’s October 21, 2016 notice of claim.
49. On or about February 2017, Dalessio received the
final of two installments of documents responsive to
her request PR-2016-00760. Defendant Palmer was
the person who
produced both installments of records to Dalessio. It
believed that the persons involved in
assisting Defendant UW’s Office of Public Records
and Public Meetings Act include: Doe 1; Doe 2; Doe
3; Doe 4; Doe 5; Doe 6; Doe 7; Doe 8; Doe 9; Doe 10;
Doe 11; Doe 12.
50. In response to Dalessio’s PRA request number PR2016-00760, in relevant part,
Defendant Palmer produced the following private,
confidential, personal information about
Dalessio: Dalessio’s social security number;
Dalessio’s date of birth, Dalessio’s place of birth;
APPENDIX 65

address; Dalessio’s employee identification number;
Dalessio’s payroll records; Dalessio’s
protected health information under both federal laws
the Health Insurance Portability and
Accountability Act (“HIPAA”), and the Americans
with Disabilities Act (“ADA”); Dalessio’s
requests for accommodations under the ADA;
comments by other employees about Dalessio’s
disabilities; Dalessio’s employee job classification
and salary and benefits information;
Dalessio’s employment security records; Dalessio’s
job performance evaluations and allegations related
to alleged misconduct; Dalessio’s work and leave
records; Dalessio’s previous legal surnames;
Dalessio’s signature; thirty-seven (37) copies of
letters supposed to be taken out of Dalessio’s file
pursuant to the 2003 settlement agreement between
Defendant UW and Dalessio; Dalessio’s cognitive job
analysis; Dalessio’s psychiatric notes; intimate
personal information about Dalessio’s home life; a
document wrongfully implying Dalessio taking
medications to combat a disease. These records are
personally identifiable, private and confidential
which could lead to identity theft.
51. Some of the medical information produced in
response to PRA request PR-2016-00760 was, at the
time, unknown to even Dalessio herself. Dalessio only
learned of some of this medical information through
the production of documents to PR-2016-00760.
52. The “Request Summary Report” associated with
PR 2016-00760 [Dkt. 42] indicates 1431 pages of
documents were withheld from the documents
provided to Dalessio in this PRA request, even though
APPENDIX 66

this PR 2016-00760 did not include any indication that
any other documents were withheld, or descriptions
of documents withheld, as required under the PRA.
53. On March 28, 2017, Dalessio filed this current
action in King County Superior Court, as case number
17-2-07812-3 SEA.
54. [Stricken] On April 10, 2017, Defendant Freeman
filed a notice of appearance in King County Superior
Court as attorney of record for Defendant UW.
55. On April 24, 2017, Defendant UW filed a notice of
removal of this case to United States District Court for
the Western District of Washington and consented to
jurisdiction over all the claims in this action.
56. [Stricken] On May 25, 2017, Dalessio had a jointtelephonic conference with Defendant Freeman and
Defendant Chen regarding this current action, in the
United States District Court for the Western District of
Washington. In this telephonic conference Dalessio
expressed serious concern about the safety and
security of her private information while presenting
evidence to this Court about the claims listed in the
original complaint. Dalessio suggested that both
parties use descriptions of her private and
confidential information, in accordance with the
Federal Rules of Evidence, rather than filing the
complete unredacted documents. Defendant
Freeman told Dalessio that she would have to think
about how Dalessio’s private and confidential
information would be filed and presented to this
Court.
57. [Stricken] On or about May 25, 2017, Dalessio
served requests for admissions to Defendant
Freeman, pursuant to Rule 36 of the Federal Rules of
APPENDIX 67

Civil Procedure, asking Defendant UW to admit to
descriptions of information contained in the public
records produced by Defendant UW.
58. [Stricken] Defendant UW made objections to each
and every request for admission that Dalessio made.
59. [Stricken] At no time did either Defendant
Freeman or Defendant Chen follow-up with Ms.
Dalessio to try to find a strategy of how to submit the
evidence to the Court, while protecting Dalessio’s
private and confidential information.
60. [Stricken] On August 24, 2017 Defendant UW filed
a motion summary judgment in this action, through its
attorney of record Defendant Freeman. Defendant
Freeman signed the motion for summary judgment.
61. [Stricken] Through PACER CM/ECF system,
Dalessio received the summary judgment in her
email at 10:00 AM on August 24, 2017.
62. [Stricken] On August 24, 2017, courts documents
indicate Defendant Freeman entered the Declaration
of Alison Swenson into PACER CM/ECF system at
10:13 AM. Dalessio’s email Notice of Electronic Filing
states the document was filed at 10:13 AM.
63. [Stricken] There are multiple facts that indicate
Defendant Freeman entered Defendant Swenson’s
Declaration into PACER CM/ECF system. First,
Defendant Swenson’s Declaration is not signed by
either Defendant Freeman, Defendant Chen, or any
attorney. Second, the caption for the Defendant
Swenson’s Declaration states it is “in support of
Defendant’s Motion for Summary Judgment.” Third,
the Notice of Electronic Filing for Defendant
Swenson’s Declaration states that the transaction was
“entered by Freeman, Jayne.”
APPENDIX 68

64. [Stricken] Defendant Chen’s Declaration in
Docket 40 of this lawsuit states: “Counsel for
Defendant then made additional redactions using
black boxes for purposes of filing the subject
documents in court, some of which had writing
describing what was underneath the redaction,
pursuant to WDLC 5.2(a).”
65. Defendant Swenson’s Declaration and exhibits
states that attached to it is Betz’s PRA
request numbered PR 2015-00570. According to the
Declaration Defendant Swenson made on
redaction, prior to the electronic filing with the Court,
but it is incomprehensible what was
redacted. Defendant Swenson and whomever filed
the declaration with the court left most if not
all of Dalessio’s private and confidential information,
open and available to the public including:
Dalessio’s social security number; Dalessio’s date of
birth, Dalessio’s place of birth; Dalessio’s
personal home address; Dalessio’s personal phone
number; Dalessio’s personal email address;
Dalessio’s employee identification number;
Dalessio’s payroll records; Dalessio’s protected
health information under both federal laws the Health
Insurance Portability and Accountability Act
(“HIPAA”), and the Americans with Disabilities Act
(“ADA”); Dalessio’s requests for accommodation
under the ADA; comments by other employees about
Dalessio’s disabilities;
Dalessio’s employee job classification and salary and
benefits information; Dalessio’s
employment security records; Dalessio’s job
performance evaluations and allegations related to
APPENDIX 69

alleged misconduct; Dalessio’s work and leave
records; Dalessio’s previous legal surnames;
Dalessio’s signature. These records are personally
identifiable, and contain private and
confidential which could lead to identity theft.
66. Defendant Swenson’s Declaration and exhibits, as
it was filed with this Court,
violated Local Court Rule 5.2 because it did not fully
redact Dalessio’s social security number
and date of birth before being entered with the
PACER CM/ECF system.
67. [Stricken] On August 27, 2017, Dalessio emailed
Ms. Laurie Cuaresma, Courtroom
Deputy to Honorable Judge Martinez, and expressed
that Dalessio felt re-violated by the
Defendant Swenson’s Declaration and exhibits that
“publicly re-disseminat[e] personal,
confidential, and statutorily exempt information
including my date of birth, personal uw
student/alumni email, health information etc, as
described in my complaint.” Defendants
Freeman, Chen and Walker were carbon copied to
this email.
68. [Stricken] On August 28, 2017, Ms. Cuaresma
responded by email and stated that
upon review of the Defendant Swenson’s Declaration
and exhibits, “one exhibit contains
information that should have been redacted” and
was immediately sealed. Ms. Cuaresma directed
Defendant to re-file the exhibit with the appropriate
redactions.

APPENDIX 70

69. [Stricken] On August 29, 2017, Dalessio for the
second time emailed Ms. Cuaresma,
to express a separate exhibit contained her
unredacted date of birth. Defendants Freeman, Chen
and Walker were carbon copied to this email.
70. [Stricken] On August 30, 2017, Ms. Cuaresma
responded by email for the second
time and stated that upon further review, “the Court
had identified several pages that still
contained Ms. Dalessio’s social security number, as
well as her date of birth,” which immediately
sealed.
71. [Stricken] On August 30, 2017, Dalessio emailed
Defendants Freeman, Chen and
Walker and asked to discuss how to file these
records under seal pursuant to Local Court Rule
5(g).
72. [Partially Stricken] On September 01, 2017,
Defendant Freeman again entered
Swenson’s Exhibit A containing the entire contents of
PR 2015-00570 into the CM/ECF system as Dkts. 32,
33, 34. This disclosure by Defendant Freeman, in
relevant part, disclosed to the public the following
private, confidential, personal information about
Dalessio: Dalessio’s place of birth; Dalessio’s
personal home address; Dalessio’s personal phone
number; Dalessio’s
personal email address; Dalessio’s employee
identification number; Dalessio’s payroll records
Dalessio’s protected health information under both
federal laws the Health Insurance Portability and

APPENDIX 71

Accountability Act (“HIPAA”), and the Americans
with Disabilities Act (“ADA”);
Dalessio’s requests for accommodation under the
ADA; comments by other employees about
Dalessio’s disabilities; Dalessio’s employee job
classification and salary and benefits
allegations related to alleged misconduct; Dalessio’s
work and leave records; Dalessio’s previous legal
surnames; Dalessio’s signature. These records are
personally identifiable, private and confidential
which could lead to identity theft.
73. [Stricken] Defendants Freeman, Chen and Walker
never responded to Dalessio’s
request to discuss how to file the records under seal
pursuant to Local Court Rule 5(g).
74. On September 05, 2018, Dalessio filed a Motion to
Seal exhibits from Defendant Swenson’s Declaration
that contained Dalessio’s private and confidential
information. The Court
subsequently sealed several of the exhibits in their
entirety.
75. Dalessio has suffered economically, physically
and emotionally from these
disclosures. Furthermore, since this information was
made public she may suffer harm at any
time in the future because of this harm.
76. Economically, Dalessio has been harmed by the
disclosure of her private andconfidential information
because the disclosure of her private and confidential
information. First,
Dalessio had to pay an attorney King County Superior
Court case number 15-2-17152-9, against Betz, to
APPENDIX 72

review Dalessio’s PRA request PR-2016-00218; Betz’s
PRA request PR 2015-00570.
Second, Dalessio paid the attorney to perform a legal
analysis of the laws governing private and
confidential information to determine if she was
legally harmed by this disclosure. Third,Dalessio had
to pay the attorney in case King County Superior
Court case number 15-2-17152-9
to make legal filings to protect her private and
confidential information from becoming part or the
public court record. Fourth, Dalessio has had to pay
for legal consultation fees in connection with the
disclosure her private and confidential information.
Fifth, Dalessio has had to pay court costs associated
with this present action. All of these costs were
incurred in Dalessio trying to remove her private and
confidential information from the public record.
77. Physically, Dalessio has been harmed by the
disclosure of her private and confidential
information because she is allergic to plastics.
Contact with any type of plastics results in
inflammation and lasting pain. Because of these
disclosures, Dalessio has had to use the
telephone to make phone calls, computers to write
letters, a printer to print documents, among other
types of plastics, all to try to remove her private and
confidential information from the
public record, in amounts to be determined by jury at
trial.
78. Emotionally, Dalessio has been harmed by the
disclosure of her private and
confidential information. Dalessio has suffered from
sleep disturbances, agitation, traumatic
APPENDIX 73

stress, lack of appetite, sadness, embarrassment,
worry, humiliation, in amounts to be determined
by the jury at trial.
79. The University of Washington has a pattern and
practice of disclosing private and
confidential information in the disclosure of
documents in response to PRA requests.
80. Dalessio, herself, has received documents under
the PRA, from other requests she
made, which contain private and confidential
information about third parties: PR 2017-00357;
PR 2017-00358; PR 2017-00359; PR 2017-00822; PR
2017-00803; PR 2017-00836; PR 2017-00738; PR 201700737.
81. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00357, in
relevant part contains, a current UW Virology
employee's work location, payroll records, work
and leave records, Date of birth, place of birth,
employee identification number, personal phone
number, W4 information, signature, retirement and
insurance information, employee job
classification and salary information, email
regarding lack of qualifications for job, documents
clearly marked as "confidential." These records are
personally identifiable, private and confidential
which could lead to identity theft. The included
inventory of documents withheld includes
performance evaluations and application materials. It
is under belief, that Lynn O’Shea who is a UW official
serving as a Compliance Analyst at the UW’s Office of

APPENDIX 74

Public Records and Open Public Meetings
participated in the disclosure of these records.
82. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00358, in
relevant part, contains a current UW Virology
employee's work location, employee identification
number, payroll records, work and leave records,
Date of birth, place of birth, disability status,
Investment program enrollment, retirement
information, Declaration of marriage/Same Sex
Domestic Partnership, dependent daughter, Long
Term Disability Insurance Enrollment, height, weight,
signature, immigrant status, "Affirmative Action Data"
race, origin, physical, sensory, mental impairment,
veteran status, test scores, test questions, on the job
accident reports, INS 1-94 departure record,
admission #, INS employee authorization (expired),
Family Medical Leave
documentation, documents clearly marked as
"confidential." These records are personally
identifiable, private and confidential which could
lead to identity theft. This PR also contained a
document relating to a "request for criminal
conviction record information from the Washington
State Patrol" "pursuant to the Child/Adult Abuse
Information Act." This PR did not contain any
listing of any documents withheld. It is under belief,
that Lynn O’Shea who is a UW official
serving as a Compliance Analyst at the UW’s Office
of Public Records and Open Public
Meetings, participated this PRA request.
83. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00359, in
APPENDIX 75

relevant part contains documents produced to this
request ten (10) current or former UW
employees that appear to be clients of the UW
Disability Service Office. The produced records, in
relevant part, identify: locations, employee
identification numbers, job classification and salary
information, payroll records, work and leave records,
FMLA documentation, Retirement pension benefits
information, signatures, Date of birth, place of birth,
disability status, protected health information under
both federal laws the Health Insurance Portability and
Accountability Act (“HIPAA”), and the Americans
with Disabilities Act (“ADA”) and RCW 51.28.070
“Information contained in the claim files and records
of injured workers," tobacco use, Insurance claim
numbers, Insurance policy numbers, medical and
dental plan information, signatures, spouse's name,
date of marriage, number of dependents, birth
certificates, form 1040, employee evaluations,
personal email addresses, requests for
accommodation under the ADA; comments by other
employees about disabilities; medical testing results,
documents clearly marked as “confidential.” It is
under belief, that Lynn O’Shea who is a UW official
serving as a Compliance Analyst at the UW’s Office of
Public Records and Open Public Meetings,
participated this PRA request.
84. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00822, in
relevant part contains documents produced to this
request four (4) former UW Virology
employees. The produced records, in relevant part,
identify: employee identification numbers,
APPENDIX 76

dates of birth, places of birth, previous surnames,
race, ethnicity, disability handicap status, veteran
status, work and leave records and FMLA records,
classification and salary records, pension benefit
records, payroll records, personal phone numbers,
protected health information under both federal laws
the Health Insurance Portability and Accountability
Act (“HIPAA”), and the Americans with Disabilities
Act (“ADA”) and RCW 51.28.070 “Information
contained in the claim files and records of injured
workers," student identification numbers,
performance evaluations, workplace accident
reports, insurance information, tobacco use, marital
status, height, weight. It is under belief, that Lynn
O’Shea who is a UW official serving as a Compliance
Analyst at the UW’s Office of Public Records and
Open Public Meetings, participated this PRA request.
85. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00803, in
relevant part contains, personal residential address,
personal cell phone number, personal email address.
These records are personally identifiable, private
and confidential which indicates safety and privacy
concerns, and could lead to identity theft. It is under
belief, that Meg McGough who is a UW official
serving as a Compliance Officer at the UW’s Office of
Public Records and Open Public Meetings,
participated this PRA request.
86. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00836, in
relevant part contains, employee ID number,
personal residential address, personal phone
number,
APPENDIX 77

date of birth, place of birth, personal biography,
curriculum vitae, personal email address, student
email address, salary and benefits information,
application materials, performance evaluation,
personal emails, disparaging emails, Homeland
Security employment eligibility verification (date of
birth, citizenship, signature), passport, bank
information, documents clearly marked as
"confidential" or "disclosure prohibited." These
records are personally identifiable, private and
confidential which could lead to identity theft. It is
under belief, that Meg McGough who is a
UW official serving as a Compliance Officer at the
UW’s Office of Public Records and Open
Public Meetings, participated this PRA request.
87. Records produced by Defendant UW to Dalessio
for PRA request PR 2017-00738, in
relevant part, contains social security number, dates
of birth, personal residential address,
employee identification number, payroll records,
insurance, retirement benefit information, personal
email addresses, employment security information,
documents clearly marked as
"confidential," protected health information under
both federal laws the Health Insurance
Portability and Accountability Act (“HIPAA”), and the
Americans with Disabilities Act
(“ADA”), L & I claim number, letters implying
improper use of controlled substances or other
alleged misconduct, many invalid waivers, and
financial information. These records are

APPENDIX 78

personally identifiable, private and confidential
which could lead to stigmatization and/or identity
theft. It is under belief, that Meg McGough who is a
UW official serving as a Compliance
Officer at the UW’s Office of Public Records and
Open Public Meetings, participated this PRA
request.
88. PR 2017-00737, in relevant part contains, an
“Internal Audit Memorandum” written
by Defendant UW, and dated March 2, 2004. The
contents of the memo concern violations of the
Fair Labor Standards Act 29 CFR 791.2 by Defendant
UW, with a December 18, 2002 fax
attached containing a July 15, 1997 letter to Dalessio
regarding payment for work outside of her job
classification. Dalessio’s personal information is the
only personally identifiable information not redacted
in the memo. These records are personally
identifiable, private and confidential which could
lead to identity theft. It is under belief, that Kathleen
Burns who is a UW official serving as a Compliance
Analyst at the UW’s Office of Public Records and
Open Public Meetings, participated this PRA request.
89. As a pattern and practice, Defendant UW
discloses personally identifiable information through
disclosures made pursuant to the Washington Public
Records Act. These disclosures contain private and
confidential, which could lead to identity theft and
safety concerns.
90. It is under belief, that multiple employees of the
UW’s of Public Records and Open Public Meetings
review each production of documents to ensure
APPENDIX 79

compliance with the Washington Public Records Act
and applicable laws.
91. In 2003, Dalessio and Defendant UW signed a
Settlement Agreement relating to her employment
relationship with UW.
92. On or about January 08, 2003 the contract was
executed by both Dalessio and Defendant UW.
93. Dalessio performed or substantially performed all
of the significant things that the settlement agreement
required her to do. Defendant UW has never
complained that Dalessio did not satisfy the terms of
the 2003 Settlement Agreement.
94. In a paragraph two (2), of the terms of the 2003
Settlement Agreement, imposed upon UW an
affirmative duty to remove certain specified files from
Dalessio’s “official Personnel Department file and
from all Department of Laboratory Medicine files.”
95. In response to PRA request PR 2016-00760,
Defendant UW produced the certain specified files
that it had a duty to remove from Dalessio’s personnel
and Laboratory Medicine files, in violation of the 2003
Settlement Agreement.
96. Dalessio’s privacy was harmed because
Defendant UW failed to remove the certain specified
documents from Dalessio’s official Personnel
Department file and from all Department of
Laboratory Medicine files. 97. Under belief, the
certain specified documents produced in response to
PRA request PR 2016-00760, unlawfully came from
Dalessio’s official Personnel Department file and from
all Department of Laboratory Medicine files, violating
the terms of the 2003 settlement agreement.

APPENDIX 80

FIRST CAUSE OF ACTION
42U.S.C. § 1983
Substantive Due Process:
Fourteenth Amendment to the United States
Constitution
Against Defendants Saunders, Swenson, Tapper,
Palmer, Does 1-12
98. Plaintiff incorporates by reference paragraphs 1
through 97 as fully set forth herein. 99. Under the
Fourteenth Amendment to the United States
Constitution, Dalessio has a
protected privacy interest in “avoiding disclosure of
personal matters.” In re Crawford, 194 F. 3d 954, 958
(9th Cir. 1999).
100. The acts of Defendants were taken under the
color of state law.
101. Defendants are legally required to comply with
the principle of substantive due process arising out of
the Fourteenth Amendments to the United States
Constitution.
102. Substantive Due Process protects an
“individuals] interest in avoiding disclosure of
personal matters.” In re Crawford, 194 F. 3d 954, 958
(9th Cir. 1999).
103. Defendants are legally required to comply with
Health Information Portability and Accountability Act,
42 U.S.C. § 1320d-6(a)(3) which states violation
occurs when a person knowingly “discloses
individually identifiable health information to another
person.”
104. Pursuant to 45 CFR § 164.512(a) a covered entity
may only disclose protected health information “to
APPENDIX 81

the extent that such use or disclosure is required by
law and the use or disclosure complies with and is
limited to the relevant requirements of such law.”
105. Defendants had an obligation to adopt policies,
procedures, and safeguards to prevent unauthorized
access to Dalessio’s medical records, pursuant to 42
U.S.C. § 1320d-6(a)(3) and 45 CFR§ 164.512(a).
106. Defendants are legally required to comply with
the Americans With Disabilities Act,
42 U.S.C. § 12112(d)(3)(B) and 42 U.S.C. §
12112(d)(4)(C) requires that medical records be kept
separately from nonconfidential information, and that
access to confidential files be limited.
Defendants had an obligation to ensure that your
medical records remained confidential and were
not commingled with other records which then could
be produced to unauthorized individuals in response
to PRA requests.
107. Defendants had an obligation to adopt policies,
procedures, and safeguards to
prevent unauthorized access to Dalessio’s medical
records, pursuant to 42 U.S.C. §
12112(d)(3)(B) and 42 U.S.C. § 12112(d)(4)(C).
108. Defendants are legally required to comply with
disclosure requirements and
exemptions of the Washington Public Records Act
(“PRA”), RCW 42.56.001, et. seq. The PRA
expressly prohibits the disclosure of: 1. Social
security numbers, RCW 42.56.230(3), RCW
42.56.230(5), RCW 42.56.230(7)(a), RCW
42.56.250(4); 2. Any record used to prove identity,

APPENDIX 82

age, residential address, social security number, or
other personal information, RCW
42.56.230(7)(a); 3. Personal information in files
maintained for employees, appointees, or elected
officials of any public agency to the extent that
disclosure would violate their right to privacy, RCW
42.56.230(3). In addition, the PRA RCW 42.56.070(1)
prohibits disclosure of information that is exempted
under other statutes, specifically; 1. Information
contained in the claim files and records of injured
workers, RCW 51.28.070; 2. Records maintained by
the employment security department and subject to
chapter 50.13 RCW if provided to another
organization for operational, research, or evaluation
purposes are exempt from disclosure under this
chapter, RCW 42.56.410;
3. Preliminary drafts, note, recommendations, intra­
agency memorandums in which opinions are
expressed or policies formulated or recommended
RCW 42.56.280; 4. Health care information, RCW
70.02.
109. Dalessio had a right to expect that Defendants
would comply with the law to protect
her private and confidential information from
disclosure. Dalessio has a constitutionally protected
right “in avoiding disclosure of personal matters.” In
re Crawford, 194 F. 3d 954, 958 (9th Cir. 1999).
110. Dalessio had a right not to have her private and
confidential information collected in absence of
evidence of criminal wrongdoing as a part of her
right to privacy and right to be left
alone and the liberty interests created by state and
federal law, and the principle of substantive
APPENDIX 83

First Amended Complaint Case 2:17-cv-00642
due process found in the Fourteenth Amendment to
the United States Constitution.
111. Defendants also deprived Dalessio of
substantive due process by arbitrary and
capricious government action which was not
rationally related to a legitimate government interest.
Dalessio’s liberty rights include deprivation of her
reputation, the possibility of identity theft, and her
personal safety and security, thereby violating
Dalessio’s right to due process under the Fourteenth
Amendment of the United States Constitution.
112. Defendants damaged Dalessio’s standing in the
community and/or imposed the disclosure of her
private and confidential information that affects her
safety and security, and forecloses her freedom to
conduct her private affairs in private and as she sees
fit.
113. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered economic harm.
114. As a direct and proximate cause of defendants’
unlawful acts, Dalessio has suffered physical harm.
115. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered outrage,
betrayal, offense, indignity, embarrassment,
humiliation, injury and insult in amounts to be
determined at the jury trial.
116. Dalessio seeks equitable relief in the form of
having her private and confidential information
redacted or destroyed from Defendant UW.
117. Dalessio seeks equitable relief in the form of
Defendant UW providing a complete list of every
person(s), business, entity, governmental
APPENDIX 84

organization who received a copy of Dalessio’s
records unlawfully.
118. Dalessio seeks recovery of all equitable relief,
compensatory damages, and punitive damages as
provided by law, in addition to reimbursement of her
reasonable attorney’s fees and costs pursuant to 42
U.S.C. § 1988 and 28 U.S.C. § 1927, if appropriate.
119. Defendants’ conduct toward Dalessio
demonstrated a wanton, reckless, or callous
indifference to the constitutional rights of Dalessio,
which warrants an imposition of punitive damages in
such amounts as the jury may deem appropriate to
deter future violations.
[Stricken] SECOND CAUSE OF ACTION
42 U.S.C. § 1983
Substantive Due Process:
Fifth and Fourteenth Amendments to the United States
Constitution
Against Defendants Freeman, Chen, Walker
120. [Stricken] Plaintiff incorporates by reference
paragraphs 1 through 97 as fully set
forth herein.
121. [Stricken] Under the Fifth and Fourteenth
Amendments to the United States
Constitution, Dalessio has a protected privacy
interest in “avoiding disclosure of personal matters.”
In re Crawford, 194 F. 3d 954, 958 (9th Cir. 1999).
122. [Stricken] The acts of Defendants were taken
under the color of state law.
123. [Stricken] Defendants are legally required to
comply with the principle of substantive due process
APPENDIX 85

arising out of the Fifth and Fourteenth Amendments to
the United States Constitution.
124. [Stricken] Substantive Due Process protects an
“individuals] interest in avoiding disclosure of
personal matters.” In re Crawford, 194 F. 3d 954, 958
(9th Cir. 1999).
125. [Stricken] Defendants are legally required to
comply with Health Information Portability and
Accountability Act, 42 U.S.C. § 1320d-6(a)(3) which
states violation occurs when a person knowingly
“discloses individually identifiable health information
to another person.”
126. [Stricken] Pursuant to 45 CFR § 164.512(a) a
covered entity may only disclose protected health
information “to the extent that such use or disclosure
is required by law and the use or disclosure complies
with and is limited to the relevant requirements of
such law.”
127. [Stricken] Defendants had an obligation to adopt
policies, procedures, and safeguards to prevent
unauthorized access to Dalessio’s medical records,
pursuant to 42 U.S.C. § 1320d-6(a)(3) and 45 CFR §
164.512(a).
disclosure is required by law and the use or
disclosure complies with and is limited to the
relevant requirements of such law.”
129. [Stricken] The Office of the Washington Attorney
General is statutorily mandated to provide legal
advice to Defendant UW.
130. [Stricken] Pursuant to 45 C.F.R. Parts 160 and
164, Defendant UW is a hybrid
covered entity and the Office of the Washington
Attorney General is a business associate of the
APPENDIX 86

University when it provides legal services that
require the use or disclosure of private health
information. When the Office of the Washington
Attorney General, in its role as a business
associate, contracts with another lawyer to provide
legal services for the University as a Special
Assistant Attorney General, the Office of the
Washington Attorney General is required to ensure
that the Special Assistant Attorney General maintains
the security and confidentiality of protected health
information.
131. [Stricken] According to the contract appointing
the Special Assistant Attorney
General as Defendant Freeman, the Special Assistant
Attorney General shall not use or disclose Protected
Health Information (“PHI”) received from the
University or the Office of the
Washington Attorney General in any manner that
would constitute a violation of federal law, the
Health Insurance Portability and Accountability Act
of 1996 and any regulations enacted pursuant to its
provisions (“HIPAA Standards”) and applicable
provisions of Washington state law. The Special
Assistant Attorney General shall ensure that its
employees, contractors, and agents use or disclose
PHI received from, or created or received on behalf
of Defendant UW or Office of Washington Attorney
General in accordance with the provisions of this
Agreement and federal and state law. The Special
Assistant Attorney General shall not use or disclose
Private Health Information in any manner other than
permitted or required by Defendant UW or the Office
of the Washington Attorney General for the purpose
APPENDIX 87

of accomplishing services on behalf of Defendant UW
or the Office of the Washington Attorney General.
132. [Stricken] Also, according to the contract
appointing the Special Assistant Attorney
General as Defendant Freeman, the Special Assistant
Attorney General agrees that it will implement all
appropriate safeguards to prevent the inappropriate
use or disclosure of Private
Health Information pursuant to the terms and
conditions of this Agreement. To the extent the
Special Assistant Attorney General carries out
Defendant UW’s obligations under HIPAA
Privacy, Breach Notifications, Security, and
Enforcement Rules and regulations, the Special
Assistant Attorney General shall comply with the
requirements of such Rules and regulations that apply
to Defendant UW in the performance of such
obligations.
133. [Stricken] Defendants are legally required to
comply with the court rules when
practicing in court. United States District Court for
the Western District of Washington’s Local
Court Rule 5.2 expressly prohibits the filing of
documents in the PACER CM/ECF system
without first redacting social security numbers, birth
dates and financial accounting information.
134. [Stricken] Defendants had an obligation to adopt
policies, procedures, and
safeguards to prevent court filings without the
mandatory redactions of social security numbers,
birth dates, and financial accounting information in
accordance with LCR 5.2.
APPENDIX 88

135. [Stricken] Dalessio’s substantive due process
rights were violated when Defendants
Freeman, Chen and Walker entered unredacted
documents in dockets 30-1, 30-2, 32, 33, 34
because these filings made Dalessio’s private and
confidential information public because
documents filed with the PACER CM/ECF system are
public documents that are widely
available.
136. [Stricken] Dalessio had a right to expect that
Defendants would comply with the law
to protect her private and confidential information
from disclosure. Dalessio has a
constitutionally protected right “in avoiding
disclosure of personal matters.” In re Crawford, 194
F. 3d 954, 958 (9th Cir. 1999).
137. [Stricken] Dalessio had a right not to have her
private and confidential information
collected in absence of evidence of criminal
wrongdoing as a part of her right to privacy and right
to be left alone and the liberty interests created by
state and federal law, and the principle of substantive
due process found in the Fourteenth Amendment to
the United States Constitution.
138. [Stricken] Defendants also deprived Dalessio of
substantive due process by arbitrary
and capricious government action which was not
rationally related to a legitimate government
interest. Dalessio’s liberty rights include deprivation
of her reputation, the possibility of identity theft, and
her personal safety and security, thereby violating

APPENDIX 89

Dalessio’s right to due process under the Fourteenth
Amendment of the United States Constitution.
139. [Stricken] Defendants damaged Dalessio’s
standing in the community and/or imposed the
disclosure of her private and confidential information
that affects her safety and security, and forecloses her
freedom to conduct her private affairs in private and
as she sees fit.
140. [Stricken] As a direct and proximate result of
defendants’ unlawful acts, Dalessio has suffered
economic harm.
141. [Stricken] As a direct and proximate cause of
defendants’ unlawful acts, Dalessio has suffered
physical harm.
142. [Stricken] As a direct and proximate result of
defendants’ unlawful acts, Dalessio has suffered
outrage, betrayal, offense, indignity, embarrassment,
humiliation, injury and insult in amounts to be
determined at the jury trial.
143. [Stricken] Dalessio seeks equitable relief in the
form of having her private and confidential
information redacted or destroyed from Defendants
Freeman, Chen and Walker’s records.
144. [Stricken] Dalessio seeks equitable relief in the
form of Defendants Freeman, Chen and Walker
permanently sealing Dalessio’s court records that
were ordered sealed in Docket 51.
145. [Stricken] Dalessio seeks recovery of all
equitable relief, compensatory damages, and
punitive damages as provided by law, in addition to
reimbursement of her reasonable attorney’s fees and
costs pursuant to 42 U.S.C. § 1988 and 28 U.S.C. §
1927, if appropriate.
APPENDIX 90

146. [Stricken] Defendants’ conduct toward Dalessio
demonstrated a wanton, reckless, or callous
indifference to the constitutional rights of Dalessio,
which warrants an imposition of punitive damages in
such amounts as the jury may deem appropriate to
deter future violations.
THIRD CAUSE OF ACTION 42 U.S.C. § 1983
Fourth Amendment
of the United States Constitution
Against Defendants Saunders, Swenson, Tapper,
Palmer, Does 1-12
147. Plaintiff incorporates by reference paragraphs 1
through 97 as fully set forth herein.
148. The Fourth Amendments to the United States
Constitution, protects against unreasonable searches
and seizures.
149. The acts of Defendants were taken under the
color of state law.
150. Government institutions searching employees
medical files can be considered searches under the
Fourth Amendment to the United States Constitution.
Norman-Bloodsaw v. Lawrence Berkeley Laboratory,
135 F. 3d 1260, 1269 (9th Cir. 1998).
151. By Defendants searching Dalessio’s personnel
file, laboratory medical file, and disability services
file, Defendants violated Dalessio’s right to be free
from unreasonable searches and seizures and to be
secure in her person, house, papers and effects in
violation of Article I, Section 7 of the Washington
Constitution, as well as in violation of the Fourth
Amendment of the United States Constitution.
APPENDIX 91

152. It is under belief that Defendants Saunders,
Tapper, Swenson, Palmer and Does 1-12 encouraged,
sanctioned, and ratified a practice of searching and
producing documents out of personnel files,
laboratory medical file, and disability services file,
violating Dalessio’s right to be free from
unreasonable searches and seizures and to be secure
in her person, house, papers and effects in violation
of Article I, Section 7 of the Washington Constitution,
as well as in violation of the Fourth Amendment of the
United States Constitution, made applicable to the
State of Washington through the Fourteenth
Amendment and made actionable by 42 U.S.C. §
1983.
153. Defendants are legally required to comply with
Health Information Portability and Accountability Act,
42 U.S.C. § 1320d-6(a)(3) which states violation
occurs when a person knowingly “discloses
individually identifiable health information to another
person.”
154. Pursuant to 45 CFR § 164.512(a) a covered entity
may only disclose protected health information “to
the extent that such use or disclosure is required by
law and the use or disclosure complies with and is
limited to the relevant requirements of such law.”
155. Defendants are legally required to comply with
the Americans With Disabilities Act,
42 U.S.C. § 12112(d)(3)(B) and 42 U.S.C. §
12112(d)(4)(C) requires that medical records be kept
separately from nonconfidential information, and that
access to confidential files be limited.
Defendants had an obligation to ensure that your
medical records remained confidential and were not
APPENDIX 92

commingled with other records which then could be
produced to unauthorized individuals in response to
PRA requests.
156. Defendants had an obligation to adopt policies,
procedures, and safeguards to prevent unauthorized
access to Dalessio’s medical records, pursuant to 42
U.S.C. § 12112(d)(3)(B) and 42 U.S.C. §
12112(d)(4)(C).
157. Defendants had no legal authority to make
searches under the PRA for Protected Health
Information under HIPAA, or protected medical
documents and requests for accommodations under
the Americans with Disabilities Act, in violation of
Article I, Section 7 of the Washington Constitution, as
well as in violation of the Fourth Amendment of the
United States Constitution, made applicable to the
State of Washington through the Fourteenth
Amendment and made actionable by 42 U.S.C. §
1983.
158. It is under belief, that Defendants’ constitutional
abuses and violations were and are directly caused
by policies, practices and/or customs devised,
implemented enforced, encouraged, sanctioned, by
Defendants Saunders, Tapper, Swenson, Palmer and
Does 1-12.
159. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered economic harm.
160. As a direct and proximate cause of defendants’
unlawful acts, Dalessio has suffered physical harm.
161. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered outrage,
betrayal, offense, indignity, embarrassment,

APPENDIX 93

humiliation, injury and insult in amounts to be
determined at the jury trial.
164. Dalessio seeks recovery of all equitable relief,
compensatory damages, and punitive damages as
provided by law, in addition to reimbursement of her
reasonable attorney’s fees and costs pursuant to 42
U.S.C. § 1988 and 28 U.S.C. § 1927, if appropriate.
165. Defendants’ conduct toward Dalessio
demonstrated a wanton, reckless, or callous
indifference to the constitutional rights of Dalessio,
which warrants an imposition of punitive damages in
such amounts as the jury may deem appropriate to
deter future violations.
FOURTH CAUSE OF ACTION Declaratory Judgment,
28 U.S.C. §2201, et. seq.
Against Defendants UW, Saunders, Swenson, Tapper,
Palmer, Does 1-12
166. Plaintiff incorporates paragraphs 1 through 97 as
set forth herein.
167. Defendants violated Dalessio’s substantive due
process rights when it/they unlawfully disclosed
private and confidential information about her to third
parties including, but not limited to: Dalessio’s social
security number; Dalessio’s date of birth, Dalessio’s
place of birth; Dalessio’s personal home address;
Dalessio’s personal phone number; Dalessio’s
personal email address; Dalessio’s employee
identification number; Dalessio’s payroll records;
Dalessio’s protected health information under both
federal laws the Health Insurance Portability and
Accountability Act (“HIPAA”), and the Americans
with Disabilities Act (“ADA”); Dalessio’s requests for
APPENDIX 94

accommodation under the ADA; comments by other
employees about Dalessio’s disabilities; Dalessio’s
employee job classification and salary and benefits
information; Dalessio’s employment security records;
Dalessio’s job performance evaluations and
allegations related to alleged misconduct; Dalessio’s
work and leave records; Dalessio’s previous legal
surnames; Dalessio’s signature.
168. Defendants violated Dalessio’s Fourth
Amendment rights when it/they unreasonably
searched Dalessio’s personnel file, laboratory
medical file, and disability services file, Defendants
violated Dalessio’s right to be free from unreasonable
searches and seizures and to be secure in her person,
house, papers and effects in violation of Article I,
Section 7 of the Washington Constitution, as well as in
violation of the Fourth Amendment of the United
States Constitution.
169. Dalessio is entitled to an order from the Court
that Defendants violated her substantive due process
rights.
170. Dalessio is entitled to an order form the Court
that Defendants violated her Fourth Amendment
rights.
171. Dalessio seeks equitable relief in the form of
having her records deleted from her file, pursuant to
the 2003 settlement agreement and other legal
authority.
172. Dalessio also seeks training and accountability
for the invasion of her civil liberties and others.
173. Dalessio seeks equitable relief in the form of
providing training in the protection of

APPENDIX 95

private and confidential information, especially in the
areas of: employee personnel files, disability
services files, medical records, social security
numbers and dates of birth.
174. Dalessio is entitled to reasonable attorney’s fees
and costs pursuant to 42. U.S.C. § 1988 and 28 U.S.C. §
1927, if appropriate.
[Stricken] FIFTH CAUSE OF ACTION Declaratory
Judgment, 28 U.S.C. §2201, et. seq.
Against Defendants Freeman, Chen, Walker
175. [Stricken] Plaintiff incorporates paragraphs 1
through 97 as set forth herein.
176. [Stricken] Defendants violated Dalessio’s
substantive due process rights when it/they
unlawfully disclosed private and confidential
information about her to third parties including, but
not limited to: Dalessio’s social security number;
Dalessio’s date of birth, Dalessio’s place of birth;
Dalessio’s personal home address; Dalessio’s
personal phone number; Dalessio’s personal email
address; Dalessio’s employee identification number;
Dalessio’s payroll records; Dalessio’s protected
health information under both federal laws the Health
Insurance Portability and Accountability Act
(“HIPAA”), and the Americans with Disabilities Act
(“ADA”); Dalessio’s requests for accommodation
under the ADA; comments by other employees about
Dalessio’s disabilities; Dalessio’s employee job
classification and salary and benefits information;
Dalessio’s employment security records; Dalessio’s
job performance evaluations and allegations related
to alleged misconduct; Dalessio’s work and leave

APPENDIX 96

records; Dalessio’s previous legal surnames;
Dalessio’s signature.
177. [Stricken] Dalessio is entitled to an order from
the Court that Defendants violated her substantive
due process rights*
178. [Stricken] Dalessio is entitled to an order form
the Court that Defendants violated her Fourth
Amendment rights.
179. [Stricken] Dalessio seeks equitable relief in the
form of having her records deleted from her file,
pursuant to the 2003 settlement agreement and other
legal authority.
180. [Stricken] Dalessio also seeks training and
accountability for the invasion of her civil liberties
and others.
181. [Stricken] Dalessio seeks equitable relief in the
form of providing training in the protection of private
and confidential information, especially in the areas
of: employee personnel files, disability services files,
medical records, social security numbers and dates
of birth.
182. [Stricken] Dalessio is entitled to reasonable
attorney’s fees and costs pursuant to 42. U.S.C. § 1988
and 28 U.S.C. § 1927, if appropriate.
SIXTH CAUSE OF ACTION Breach of Contract
Against Defendant UW
183. Plaintiff incorporates paragraphs 1 through 97 as
set forth herein.
184. Dalessio and Defendant UW entered into a
contract/settlement agreement in 2003.

APPENDIX 97

185. Defendant UW breached this 2003
contract/settlement agreement by failing to
remove certain specific documents from Dalessio’s
official personnel file and from all Department of
Labaorary Medicine files.
*
186. On January 10, 2003 Dalessio was told by
Washington Assistant Attorney General Jeffrey Davis
that the documents in question have collected and
sequestered pursuant to the 2003 contract/settlement
agreement.
187. On or about February 2017, Dalessio received
documents to her PRA request PR 2016-00760. In
those documents were documents from her
personnel file and from the Department of Laboratory
Medicine files. This is when Dalessio first learned of
Defendant UW’s breach of the 2003
contract/settlement agreement.
188. Dalessio performed her duties under the 2003
contract/settlement agreement. At no time did
Defendant UW notify Dalessio that she did not satisfy
the terms of the 2003 contract/settlement agreement.
189. Dalessio suffered actual and foreseeable
damages a result of Defendant UW’s breach.
190. But for Defendant UW’s breach of the 2003
contract/settlement agreement, many of
the private and confidential documents disclosed
concerning Dalessio through PRA requests to Betz
and others, would have not occurred.
SEVENTH CAUSE OF ACTION Common Law Tort
Public Disclosure of Private Facts

APPENDIX 98

Against Defendants Saunders, Swenson, Tapper,
Palmer, Does 1-12
191. Plaintiff incorporates paragraphs 1 through 97 as
set forth herein.
192. Washington case law recognizes the common
law tort of public disclosure of private
facts. See e.g. Hearst v. Hoppe, 90 Wn.2d 123, 135
(1978).
193. At all relevant times, Dalessio was a resident of
the State of Washington.
194. Defendants gave publicity to matters pertaining
to Dalessio’s private life by disclosing through the
PRA her: Dalessio’s social security number;
Dalessio’s date of birth, Dalessio’s place of birth;
Dalessio’s personal home address; Dalessio’s
personal phone number; Dalessio’s personal email
address; Dalessio’s employee identification number;
Dalessio’s payroll records; Dalessio’s protected
health information under both federal laws the Health
Insurance Portability and Accountability Act
(“HIPAA”), and the Americans with Disabilities Act
(“ADA”); Dalessio’s requests for accommodation
under the ADA; comments by other employees about
Dalessio’s disabilities; Dalessio’s employee job
classification and salary and benefits information;
Dalessio’s employment security records; Dalessio’s
job performance evaluations and allegations related
to alleged misconduct; Dalessio’s work and leave
records; Dalessio’s previous legal surnames;
Dalessio’s signature.
195. Disclosing information, listed in paragraph 192
of this complaint, through the PRA would be highly
offensive to a reasonable person.
APPENDIX 99

196. None of the information listed in paragraph 192
of this complaint is of legitimate concern to the
public.
197. The disclosure of the documents through the PRA
is a public disclosure.
198. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered
economic harm.
199. As a direct and proximate cause of defendants’
unlawful acts, Dalessio has suffered physical harm.
200. As a direct and proximate result of defendants’
unlawful acts, Dalessio has suffered outrage,
betrayal, offense, indignity, embarrassment,
humiliation, injury and insult in amounts to be
determined at the jury trial.
201. Defendants’ conduct toward Dalessio
demonstrated a wanton, reckless, or callous
indifference to the constitutional rights of Dalessio,
which warrants an imposition of punitive damages in
such amounts as the jury may deem appropriate to
deter future violations.
EIGHTH CAUSE OF ACTION Injunctive Relief
Against Defendants Saunders, Swenson, Tapper,
Palmer, Does 1-12
200. Plaintiff incorporates paragraphs 1 through 97 as
set forth herein.
201. Dalessio has a constitutionally protected
expectation of privacy in personal identifying
information based on Article 1, Section 7 of the
Washington State Constitution.

APPENDIX 100

202. Dalessio’s personal identifying information is
exempt from disclosure under the PRA. Disclosure of
Dalessio’s identifying information would not be in the
public interest, and would continue to substantially
and irreparably damage Dalessio and her privacy
interest.
203. Dalessio has no other adequate remedy at law.
The PRA, RCW 42.56.540, allows a
Court to enjoin the release of public records when
the release would clearly not be in the public interest
and would substantially and irreparably damage any
person. Final injunctive relief is necessary to protect
Dalessio from the release of exempt private
information.
V. Prayer for Relief
Wherefore, Plaintiff Dalessio prays for judgment
against the defendants as follows:
1. Economic damages in an amount to be determined
at trial;
2. Compensatory damages in an amount to be
determined at trial;
3. All available equitable relief and damages in
amounts to be determined at trial;
4. Punitive damages consistent with the claims above
against defendants in amounts to be
determined at trial;
5. Reasonable attorney’s fees and litigation
expenses/costs herein, including expert witness and
expenses, consistent with the claims above against
defendants; and
6. Grant other relief as just and proper.
APPENDIX 101

PLAINTIFF HEREBY DEMANDS A JURY TRIAL.
DATED this 12th day of March, 2018
Law Office of Joseph Thomas
,/s/ Joseph Thomas
Joseph Thomas, WSBA
49532
Law Office of Joseph Thomas 14625 SE 176th St., Apt.
N101 Renton, Washington Phone (206)390-8848

APPENDIX 102

Filed 4/24/2017
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND FOR THE COUNTY OF KING
JULIE DALESSIO, an individual, Plaintiff,
v.

UNIVERSITY OF WASHINGTON
Defendant.
NOTICE OF REMOVAL KCSC Case No. 17-2-07812-3
SEA
The Honorable Susan Amini
TO: CLERK OF THE COURT,
AND TO: JULIE DALESSIO, an individual, Plaintiff; pro
se
COMES NOW the Defendant, University of
Washington, by and through its attorneys of record,
and hereby remove to the U.S. District Court,
Western District of Washington at Seattle, the State
court action described below.
1. On or about March 30, 2017, the Plaintiff, Julie
Dalessio , commenced an action in the Superior Court
of the State of Washington in and for KING, captioned
Julie Dalessio v. University of Washington
(hereinafter “Complaint”). A true and correct copy of
the Complaint is attached to this Notice of Removal
and marked as Exhibit A. A copy of the Complaint is
also included in the documents submitted with the
Verification of Counsel. In this Complaint, Plaintiff

APPENDIX 103

alleges claims arising under the following law of the
United States:
a. 45 CFR Parts 160 & 164 (HIPPA) (complaint, fl5.1(a))
b. 20 U.S.C. § 1232g(a)(4) and 34 CFR Part 99
(FERPA) (Complaint fl5.1 (a))
c. 5 U.S.C. § 552(b)(6) (Freedom of Information
Act) (FOIA) (C omplaint
US-1(1))
d. 42 U.S.C. § 2000e (Title VII of the Civil Rights
Act)(section 704(a))
(Complaint 1J5.4(d), 7.5)
e. 42 U.S.C. §12101 (Americans with Disabilities Act)
(ADA)(Complaint, fflI5.4(d), 7.5).
f. 42. U.S.C. §1983 (Complaint, fl5.4(h), 7.5).
g. 42 U.S.C §1981 (Complaint, 1J5.4(k)).
2. Pursuant to 28 U.S.C. §1367, the district court shall
have supplemental jurisdiction over all other claims
that are so related to claims in the action within such
original jurisdiction that they form part of the same
case or controversy under Article III of the United
States Constitution.
3. With the filing of this Notice of Removal with the
U.S. District Court, the Defendants will pay the $400
Federal Court filing and removal fee.
4. Because this matter is subject to nondiscretionary
removal to the U.S. District Court, and this Notice of
Removal has been timely filed, the instant lawsuit
which is filed in the King County Superior Court - the
APPENDIX 104

county Superior Court embraced by the District
Court for the Western District of Washington - should
be immediately removed to the District Court.
DATED: April 24, 2017
KEATING, BUCKLIN & McCORMACK, INC., P.S.
By: /s/Jayne L. Freeman
Jayne L. Freeman, WSBA #24318
Special Assistant Attorney General for Defendant
University of Washington
800 Fifth Avenue, Suite 4141 Seattle, WA 98104-3175
Telephone: (206) 623-8861 Fax: (206) 223-9423
Email: jfreeman@kbmlawyers.com
KEATING, BUCKLIN & MCCORMACK, INC., P.S.
ATTORNEYS AT LAW
800 FIFTH AVENUE, SUITE 4141 SEATTLE,
WASHINGTON 98104-3175 PHONE: (206) 623-8861
FAX: (206) 223-9423

APPENDIX 105

Filed April 3, 2017
Cause No. 17-2-07812-3
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND FOR THE COUNTY OF KING
JULIE DALESSIO, an individual
Plaintiff
V.
THE UNIVERSITY OF WASHINGTON
Defendant
COMPLAINT FOR
INVASION OF PRIVACY/ PUBLIC RECORDS
VIOLATIONS; BREACH OF CONTRACT;
DEFAMATION/LIBEL; DISCRIMINATION/
RETALIATION; NEGLIGENCE
COMES NOW Plaintiff, J DALESSIO, FOR cause of
action against the University of Washington,
COMPLAINS, states and alleges as follows:
Introduction
On or around April 9, 2016, Plaintiff discovered that
The University of Washington was releasing exempt,
confidential, identifying, personal, and libelous
records relating to her employment with the
University of Washington. The Plaintiff has suffered
great hardship due to the negligence of the
University of Washington in improperly securing and
recklessly releasing Plaintiffs employee records to
the public.

APPENDIX 106

'\

STATUTORY PROVISIONS
42 U.S.C. § 1983: Every person who, under color of
any statute, ordinance, regulation, custom, or usage,
of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for
redress,...”
42 U.S.C. § 2000e-5. Enforcement provisions
(f) Civil action by Commission, Attorney General, or
person aggrieved; preconditions; procedure;
appointment of attorney; payment of fees, costs, or
security; intervention; stay of Federal proceedings;
action for appropriate temporary or preliminary
relief pending final disposition of charge; jurisdiction
and venue of United States courts; designation of
judge to hear and determine case; assignment of case
for hearing; expedition of case; appointment of
master
(g) Injunctions; appropriate affirmative action;
equitable relief; accrual of back pay; reduction of
back pay; limitations on judicial orders(l) If the court
finds that the respondent has intentionally engaged in
or is intentionally engaging in an unlawful
employment practice charged in the complaint, the
court may enjoin the respondent from engaging in
such unlawful employment practice, and order such
affirmative action as may be appropriate, which may
APPENDIX 107

include, but is not limited to, reinstatement or hiring
of employees, with or without back pay (payable by
the employer, employment agency, or labor
organization, as the case may be, responsible for the
unlawful employment practice), or any other
equitable relief as the court deems appropriate. Back
pay liability shall not accrue from a date more than
two years prior to the filing of a charge with the
Commission. Interim earnings or amounts eamable
with reasonable diligence by the person or persons
discriminated against shall operate to reduce the
back pay otherwise allowable.
42 U.S.C. § 12101
Findings and purpose (a) Findings
The Congress finds that—
(1) physical or mental disabilities in no way
diminish a person’s right to fully participate in all
aspects of society, yet many people with physical or
mental disabilities have been precluded from doing
so because of discrimination; others who have a
record of a disability or are regarded as having a
disability also have been subjected to discrimination;
(2) historically, society has tended to isolate and
segregate individuals with disabilities, and, despite
some improvements, such forms of discrimination
against individuals with dis- abilities continue to be a
serious and pervasive social problem;
(3) discrimination against individuals with disabilities
persists in such critical areas as employment,
housing, public accommodations, education,
transportation, communication, recreation,
APPENDIX 108

institutionalization, health serv- ices, voting, and
access to public services;
(4) unlike individuals who have experienced
discrimination on the basis of race, color, sex,
national origin, religion, or age, individuals who have
experienced discrimination on the basis of disability
have often had no legal re- course to redress such
discrimination;
(5) individuals with disabilities continually encounter
various forms of discrimination, in- eluding outright
intentional exclusion, the discriminatory effects of
architectural, trans- portation, and communication
barriers, over- protective rules and policies, failure
to make modifications to existing facilities and
practices, exclusionary qualification standards and
criteria, segregation, and relegation to lesser
services, programs, activities, benefits, jobs, or other
opportunities;
(6) census data, national polls, and other studies have
documented that people with dis- abilities, as a
group, occupy an inferior status in our society, and
are severely disadvantaged socially, vocationally,
economically, and educationally;
(7) the Nation’s proper goals regarding indi- viduals
with disabilities are to assure equality of opportunity,
full participation, independent living, and economic
self-sufficiency for such individuals; and
(8) the continuing existence of unfair and
unnecessary discrimination and prejudice de- nies
people with disabilities the opportunity to compete
on an equal basis and to pursue those opportunities
for which our free society is justifiably famous, and
costs the United States billions of dollars in
APPENDIX 109

unnecessary expenses resulting from dependency
and non- productivity.
(b) Purpose
It is the purpose of this chapter—
(1) to provide a clear and comprehensive na­
tional mandate for the elimination of dis- crimination
against individuals with disabilities;
(2) to provide clear, strong, consistent, en- forceable
standards addressing discrimination against
individuals with disabilities;
(3) to ensure that the Federal Government plays a
central role in enforcing the standards established in
this chapter on behalf of indi- viduals with
disabilities; and
(4) to invoke the sweep of congressional authority,
including the power to enforce the fourteenth
amendment and to regulate commerce, in order to
address the major areas of discrimination faced dayto-day by people with disabilities.
42 U.S.C. § 12112
(a) General rule: No covered entity shall
discriminate against a qualified individual on the
basis of disability in regard to job application
procedures, the hiring, advancement, or discharge of
employees, employee compensation, job training,
and other terms, conditions, and privileges of
employment.
(b) Construction: As used in subsection (a) of this
section, the term “discriminate against a qualified
individual on the basis of disability” includes—

APPENDIX 110

(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely affects
the opportunities or status of such applicant or
employee because of the disability of such applicant
or employee;
(2) participating in a contractual or other
arrangement or relationship that has the effect of
subjecting a covered entity’s qualified applicant or
employee with a disability to the discrimination
prohibited by this subchapter (such relationship
includes a relationship with an employment or
referral agency, labor union, an organization
providing fringe benefits to an employee of the
covered entity, or an organization providing training
and apprenticeship programs);
(3) utilizing standards, criteria, or methods of
administration—
(A) that have the effect of discrimination on the basis
of disability; or
(B) that perpetuate the discrimination of others who
are subject to common administrative control;
(d)(3) A covered entity may require a medical
examination after an offer of employment has been
made to a job applicant and prior to the
commencement of the employment duties of such
applicant, and may condition an offer of employment
on the results of such examination, if—(A) all entering
employees are subjected to such an examination
regardless of disability; (B) information obtained
regarding the medical condition or history of the
applicant is collected and maintained on separate
forms and in separate medical files and is treated as a
confidential medical record, except that—(i)
APPENDIX 111

supervisors and managers may be informed
regarding necessary restrictions on the work or
duties of the employee and necessary
accommodations;(ii) first aid and safety personnel
may be informed, when appropriate, if the disability
might require emergency treatment; and(iii)
government officials investigating compliance with
this chapter shall be provided relevant information
on request; and(C) the results of such examination
are used only in accordance with this sub-chapter.
(4)(C) Information obtained under subparagraph(B)
regarding the medical condition or history of any
employee are subject to the requirements of
subparagraphs (B) and (C) of paragraph (3).
42 U.S.C. § 12117. Enforcement(a) Powers, remedies,
and procedures: The powers, remedies, and
procedures set forth in sections 2000e-4, 2000e-5,
2000e-6, 2000e-8, and2000e-9 of this title shall be the
powers, remedies, and procedures this subchapter
provides to the Commission, to the Attorney General,
or to any person alleging discrimination on the basis
of disability in violation of any provision of this
chapter, or regulations promulgated under section
12116 of this title, concerning employment.
RCW 42.56.050 Invasion of privacy, when.
A person's "right to privacy," "right of privacy,"
"privacy," or "personal privacy," as these terms are
used in this chapter, is invaded or violated only if
disclosure of information about the person: (1) Would
be highly offensive to a reasonable person, and (2) is
not of legitimate concern to the public. The
APPENDIX 112

provisions of this chapter dealing with the right to
privacy in certain public records do not create any
right of privacy beyond those rights that are specified
in this chapter as express exemptions from the
public's right to inspect, examine, or copy public
records.
RCW 42.56.060 Disclaimer of public liability.
No public agency, public official, public employee,
or custodian shall be liable, nor shall a cause of
action exist, for any loss or damage based upon the
release of a public record if the public agency, public
official, public employee, or custodian acted in good
faith in attempting to comply with the provisions of
this chapter.
RCW 26.44.060
Immunity from civil or criminal liability—
Confidential communications not violated—Actions
against state not affected—False report, penalty.
(l)(a) Except as provided in (b) of this subsection,
any person participating in good faith in the making
of a report pursuant to this chapter, testifying as to
alleged child abuse or neglect in a judicial
proceeding, or otherwise providing information or
assistance, including medical evaluations or
consultations, in connection with a report,
investigation, or legal intervention pursuant to a good
faith report of child abuse or neglect shall in so doing
be immune from any civil or criminal liability arising
out of such reporting or testifying under any law of
this state or its political subdivisions.

APPENDIX 113

r~

(b) A person convicted of a violation of subsection (4)
of this section shall not be immune from liability
under (a) of this subsection.
(2) An administrator of a hospital or similar institution
or any physician licensed pursuant to chapters 18.71
or 18.57 RCW taking a child into custody pursuant to
RCW 26.44.056 shall not be subject to criminal or civil
liability for such taking into custody.
(3) Conduct conforming with the reporting
requirements of this chapter shall not be deemed a
violation of the confidential communication privilege
of RCW 5.60.060 (3) and (4), 18.53.200 and 18.83.110.
Nothing in this chapter shall be construed as to
supersede or abridge remedies provided in chapter
4.92 RCW.
(4) A person who, intentionally and in bad faith,
knowingly makes a false report of alleged abuse or
neglect shall be guilty of a misdemeanor punishable
in accordance with RCW 9A.20.021.
(5) A person who, in good faith and without gross
negligence, cooperates in an investigation arising as
a result of a report made pursuant to this chapter,
shall not be subject to civil liability arising out of his
or her cooperation. This subsection does not apply to
a person who caused or allowed the child abuse or
neglect to occur.

APPENDIX 114

*■?

*♦

V
.. ^•.C»Sie2:17-«-00G42-MJP
i

\*

OwuimmM FJedOStolg p«9« , .

;4-i' '■<*"’*

'

91'

*

3

II
i

■v

!

** . »K

|j"

fj'

?■

r;

*•
>..

f-i
tru

?

: -<

V 8*:

sI-

l 11! H!
«- *TB±

* : S.
t

?

•<
?

l

- nfi

I

"t • .i

*

£

■

.'■•'• ;.'■

-?"i. *;**'•*

2>

:l

hi

hi>i

k

■ f

APPENDIX 115

